<html>
<title> - EXAMINING EPA'S UNACCEPTABLE RESPONSE TO INDIAN TRIBES</title>
<body><pre>[Senate Hearing 114-313]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 114-313

         EXAMINING EPA'S UNACCEPTABLE RESPONSE TO INDIAN TRIBES

=======================================================================

                             FIELD HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 22, 2016

                               __________

         Printed for the use of the Committee on Indian Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-899 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
            
            
            
            
            
            
            
            
            
            
            
                          
                          



                      COMMITTEE ON INDIAN AFFAIRS

                    JOHN BARRASSO, Wyoming, Chairman
                   JON TESTER, Montana, Vice Chairman
JOHN McCAIN, Arizona                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Anthony Walters, Minority Staff Director and Chief Counsel
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Field hearing held on April 22, 2016.............................     1
Statement of Senator Barrasso....................................     1
Statement of Senator McCain......................................     2

                               Witnesses

Bates, Hon. Lorenzo, Speaker, Navajo Nation Council..............    26
    Prepared statement...........................................    28
Begaye, Hon. Russell, President, Navajo Nation...................    13
    Prepared statement...........................................    14
Honanie, Hon. Herman G., Chairman, Hopi Tribe....................    18
    Prepared statement...........................................    20
Kirkpatrick, Hon. Ann, U.S. Representative from Arizona..........     4
Lantz, R, Clark, Ph.D. Professor and Associate Head, Cellular and 
  Molecular Medicine, University of Arizona......................    35
    Prepared statement...........................................    37
Stanislaus, Hon. Mathy, Assistant Administrator, Office of Land 
  and Emergency Management, U.S. Environmental Protection Agency.     6
    Prepared statement...........................................     9

                                Appendix

Response to written questions submitted by Hon. Steve Daines to 
  Hon. Mathy Stanislaus..........................................    61
 
         EXAMINING EPA'S UNACCEPTABLE RESPONSE TO INDIAN TRIBES

                              ----------                              


                         FRIDAY, APRIL 22, 2016


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                       Phoenix, AZ.
    The Committee met, pursuant to notice, at 10:30 a.m. in the 
City of Phoenix, Council Chambers, Hon. John Barrasso, Chairman 
of the Committee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    The Chairman. I call this hearing to order. Good morning, 
I'm John Barrasso, a U.S. Senator from Wyoming and Chairman of 
the Senate Committee on Indian Affairs.
    Today is Earth Day, a day generally recognized for 
reflecting on environmental protection. Instead, we're called 
upon to exam the environmental disaster caused by the 
Environmental Protection Agency. This hearing will focus on the 
EPA'S unacceptable response to Indian tribes.
    Eight months ago, August 5th, 2015, one of the largest 
environmental catastrophes this region has seen occurred in the 
Rocky Mountains. This event, which affected thousands in three 
states, and at least two Indian tribes, occurred under the 
direction and supervision of the EPA. It's called the Gold King 
Mine blowout.
    In this disaster, over 3 million gallons of toxic 
wastewater was unleashed into Cement Creek, a tributary of the 
Animus River, and then flowed downstream to the San Juan River, 
affecting thousands of lives on the Navajo Nation.
    Pictures of that event are on the easels in front of us 
today. Words simply cannot describe the devastation that 
ensued.
    In September of last year, the Committee on Indian Affairs 
and the Senate held a hearing on this disaster, and heard 
testimony from the Navajo Nation and the Southern Ute Indian 
tribes.
    The president of the Navajo Nation, Russell Begaye, told 
our Committee that for the Navajo Nation and the people, 
``Water is sacred and the river is life for all of us.''
    Unfortunately, for the Navajos and the other surrounding 
communities--and this is a bottle of water from there--this is 
what life became for thousands last summer.
    I can see why President Begaye and the other members of the 
Navajo Nation are afraid to use the river. We know that the EPA 
caused the spill more than eight months ago, because they made 
critical mistakes and they failed to take basic precautions.
    In a few weeks, spring runoffs will begin in the Rocky 
Mountains. The spring runoff is causing another round of fear 
among residents along the banks of the Animus River and the San 
Juan River, according to a recent study, and a report by the 
Wall Street Journal article.
    On April 8th an article states, ``The EPA hasn't returned 
to conduct more tests and now others are worried that lead and 
other toxic materials that settled in the river will be stirred 
up and contaminate the water again as the Animus swells with 
spring snow melt from the Rocky Mountains.''
    Furthermore, the article goes on to say, ``The sludge 
turned the Animus mustered yellow for days''--as the pictures 
show--``and Federal officials found high levels of toxicity 
from lead and arsenic.''
    EPA officials eventually cleared the water for drinking and 
recreation, but warned that chemicals in the riverbed could be 
stirred up again and that a full cleanup could take years.
    The carelessness of the EPA is disturbing, to say the 
least. It is almost as careless, or to put it more bluntly, 
disrespectful of the people of the West for the EPA not to send 
a single witness here when we announced this hearing almost a 
month ago.
    It is a sad day when a subpoena must be issued from the 
Committee to compel an administration witness to appear.
    Not since the hearings of Jack Abramoff has this Committee 
needed to compel a witness to come forward. It's shameful.
    You know it, and Indian country knows it. Let me be clear, 
the Committee is not finished with the EPA spill. I intend to 
have further hearings as needed, and I will do whatever it 
takes for Indian communities to get answers. This isn't the 
end.
    Today's hearing will highlight how the EPA's actions 
continue to impact tribal communities. This includes the 
inadequate handling of the Gold King Mine disaster, and the 
agency's response to cleaning up Cold War-era uranium mines 
across the Navajo and the Hopi reservations.
    I think that the Navajo Nation and other tribes in the West 
are right to not trust the EPA, which I understand people along 
the river are actually calling the environmental polluting 
agency and the environmental poisoning agency.
    Before we can receive testimony from our witnesses, I want 
to thank Senator John McCain. I want to thank him for 
requesting this hearing on behalf of the Indian tribes, and for 
his resolute leadership on this matter.
    Senator McCain.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you, Mr. Chairman. And I appreciate 
you taking the time from your very busy schedule as chairman of 
the Indian Affairs Committee and the United States Senate to be 
here and hold this hearing today.
    And from your statement and comment, I know how much you 
are concerned about this issue, and how important it is, not 
only to our Committee but to the Navajo and Hopi people and all 
members of Congress.
    So I appreciate you being here. I appreciate the Honorable 
Ann Kirkpatrick being here, who represents in her congressional 
district the Navajo and Hopi Nations. And we welcome you, 
Congresswoman Kirkpatrick.
    As the title of today's hearing indicates, the EPA's failed 
on many occasions to meet its obligations to Native American 
tribes. And I'd like to, again, express my dismay, Mr. 
Chairman, that the EPA had first refused to send a witness.
    I don't like to compare things. But suppose there had been 
a request for an EPA representative in Flint, Michigan at a 
hearing and the EPA had refused. I think you would have seen an 
uproar of enormous proportions.
    And so, unfortunately, in a bipartisan basis, both 
Democrats and Republicans on the Committee agreed that we had 
to subpoena an EPA witness to be here today.
    That is indicative of a lot of things, including the 
priority that the EPA has given this disaster. And it is a 
disaster.
    Today we will focus on their failing government-to-
government relations with Indian country. And, obviously, the 
Gold King Mine disaster is the catalyst for all this.
    There's no question as to the EPA's culpability and 
negligence in this disaster. EPA employees were on site, 
directing work at the mine. They knew the potential for a 
catastrophe blowout, for a catastrophic blowout.
    Congressional and Federal investigations have since 
revealed that the EPA did not conduct adequate water pressure 
tests behind the mine edit, nor did it adequately consult with 
partnering Federal agencies before excavating around the mine's 
containment plug.
    And as you mention, Mr. Chairman, as a result, more than 
400 tons of pollutant, including lead, arsenic, and other 
hazardous metals entered the San Juan River.
    During the peak of the spill, water quality tests 
registered arsenic levels at 300 times above normal lead 
levels. 300 times above arsenic levels. And 3,500 times above 
normal lead levels.
    This forced the closure of tribal immigration systems, 
which has devastated agricultural communities in and around 
Farmington. An estimated 1,500 Navajo farmers, largely 
subsistence farmers, have gone without water for their crops 
and livestock. Roughly 30,000 acres of farmland have been 
essentially fallowed.
    An economic analysis by Douglas Holtz-Eakin, noted 
economist and former chief of the non-partisan Congressional 
Budget Office told the Senate Committee on Indian Affairs last 
year that the Navajo Nation lost an estimated $892,000 in 
agricultural production alone within the first few weeks.
    As information about the devastation continues to mount in 
months and years to come, the total impact economically could 
reach upwards of $335 million.
    And the economic impact, Mr. Chairman, alone doesn't 
account for the human tragedy. In the days following the spill, 
Navajo officials reported several suicides believed to be 
connected to the disaster.
    Today, more than eight months after the spill, questions 
linger about the presence of toxic chem icals in the river. 
Sediment, as you pointed out, which experts warn can resurface 
during periods of heavy rainfall or snow melt.
    This isn't the Committee's first hearing on the Gold King 
Mine disaster, as you mention. No criminal charges have been 
referred to the Justice Department. And the Navajo has received 
only $156,000 from the EPA in, quote, reimbursements.
    I want to welcome our witnesses here today. Particularly, 
Navajo Nation President Russell Begaye and Navajo Counsel 
Speaker LoRenzo Bates who know intimately well the financial 
and emotional toll this disaster has had on the Navajo people.
    We're also joined by Hopi Tribal Chairman Herman Honanie 
whose people have suffered under EPA's apparent disregard for 
the Tribe's economic and environmental priorities.
    I want to point out, again, Mr. Chairman, to date the EPA 
has spent $80 million in Flint, Michigan, while spending 
$157,000 here in the response to this disaster for tribes to 
deal with this scandal. Native people here in Arizona deserve 
better answers. What is clear now is that not enough has been 
done.
    And, finally, in closing, after many months and many 
hundreds of hours involved in this issue, I've come to the 
conclusion that the Department of Justice criminal 
investigation is merited and must now occur.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator McCain. We 
have several witnesses before us today. I'd like to remind the 
witnesses that your full written statement will be made part of 
the official hearing record, so I ask that you please try to 
keep your statements to five minutes so that we may have time 
for questions. I look forward to hearing from our first 
panelist, which is the Honorable Ann Kirkpatrick. Welcome and 
please proceed.

              STATEMENT OF HON. ANN KIRKPATRICK, 
                U.S. REPRESENTATIVE FROM ARIZONA

    Ms. Kirkpatrick. Thank you, Chairman Barrasso and Senator 
McCain, for this opportunity to testify today before the 
Committee on an issue of critical importance to the Tribes in 
my congressional district, specifically, the Navajo Nation and 
the Hopi Tribe, which I represent.
    Chairman Honanie, President Begaye, Speaker Bates. It is an 
honor to testify with each of you today.
    The Gold King Mine spill in August of 2015 sounded many 
alarms. Not only as an environmental and economic disaster, but 
also as a failure by the EPA on multiple fronts: a failure to 
respond swiftly and transparently, a failure to immediately 
engage tribal governments, and a failure to mitigate the short- 
and long-term burdens on our tribes from this agency-created 
disaster.
    These failures began on August 5th, 2015, when 
approximately 3 million gallons of contaminated water were 
discharged from the Gold King Mine into a Colorado tributary of 
the Animus River while EPA contractors were conducting 
investigation of the mine.
    By August 8th, the toxic water had spilled into the San 
Juan River, an important water source for Arizona's tribal 
communities, agriculture, recreation, and small businesses.
    Despite the potential implications of the spill, state and 
tribal leaders were not immediately notified. The EPA 
implemented an emergency response within the agency, but it 
took over 24 hours for the agency to send out any official 
notice of the incident.
    The EPA first contacted state and local officials, with 
tribes, unfortunately, being the last to know. The delay in 
notifying impacted communities and the leaders responsible for 
responding to such a disaster is inexcusable.
    For tribal communities downstream of the spill, those were 
precious hours wasted. Water is life for these communities. And 
the EPA failed to take appropriate action to respond to the 
risks to their water supply.
    The Navajo Nation has suffered substantial losses as a 
result of this spill. Loss of crops and livestock, as well as 
the immense cost of water sampling and monitoring to protect 
the public health. All of these have been a challenge, to say 
the least.
    In the days after the spill, I was in northern Arizona to 
meet with EPA officials and local leaders in communities where 
the jobs and livelihoods of many Navajo families were at 
serious risk.
    The potential for devastating economic impact was looming. 
On August 8th, the Navajo Nation declared a state of emergency 
in response to the health risks posed by the contaminated water 
traveling toward their essential water sources.
    In light of the Navajo Nation's limited resources to 
address such a severe and evolving hazard, the Tribe appealed 
to FEMA for assistance, but they were denied.
    Our tribes are sovereign nations. And as someone who was 
born and raised on tribal land, I have a deep understanding and 
respect for what that means.
    The Federal Government has historic government-to-
government obligations to our tribes and responsibilities to 
protect tribal land and natural resources.
    And until the EPA is held responsible for the cleanup of 
this contamination, as well as the long-term mitigation of the 
harm caused by this disaster, that obligation remains unmet.
    On August 11th, 2015, Administrator Gina McCarthy stated 
that the EPA would take full responsibility for the spill. 
However, as we will hear today, the Navajo Nation as a list of 
needs that have not been met. And the costs that the Nation 
incurred responding to this EPA-caused disaster have not been 
made right.
    My colleagues and I in the House of Representatives are 
asking for exactly that. I have co-sponsored H.R.602, the Gold 
King Mine Spill Recovery Act of 2015, which would provide 
compensation to farmers and others who sustained losses related 
to the Gold King Mine spill.
    Congress needs to pass this legislation immediately. 
Arizona and the Navajo Nation have historically challenging 
relationships with the EPA, in my view.
    The agency often demonstrates a lack of understanding of 
our western issues, especially in regards to land, energy, and 
natural resources.
    Government-to-government communication and cooperation are 
key to strong relationships. EPA's lack of transparency on 
information regarding the Gold King Mine spill is only adding 
to the feeling of distrust in a community that is already 
distrustful because of the Agency's troubling response to a 
disaster it caused.
    And I hope we will hear today about the EPA's efforts to 
better meet the needs of Arizona's tribal communities now and 
in the future. Our tribes deserve nothing less.
    Thank you for hearing my testimony today. And I look 
forward to answering any questions you may have.
    The Chairman. Thank you very much for your testimony. I 
appreciate you being here to share your thoughts with us.
    Ms. Kirkpatrick. Thank you.
    The Chairman. We are going to move to the second panel--we 
have five members of the panel. And if I could ask you to come 
to the table, our first witness will be assistant administrator 
of the EPA, Mathy Stanislaus.
    We will also hear from the Honorable Russell Begaye, 
President of the Navajo Nation Council; the Honorable Herman 
Honanie, who is the Chairman of the Hopi Tribe; the Honorable 
LoRenzo Bates, who is the Speaker of the Navajo Nation; and 
Clark Lantz, Dr. Clark Lantz, who is Professor and Associate 
Head of Cellular/Molecular Medicine at the University of 
Arizona.
    Thank each of you for being here. As I said, your full 
statements will be made part of the official record of today's 
hearing. We ask that you try to keep your comments to within 
five minutes so it will leave time for questioning.
    And with that, I welcome you and ask Assistant 
Administrator of the EPA Stanislaus to proceed.

         STATEMENT OF HON. MATHY STANISLAUS, ASSISTANT 
          ADMINISTRATOR, OFFICE OF LAND AND EMERGENCY 
           MANAGEMENT, U.S. ENVIRONMENTAL PROTECTION 
                             AGENCY

    Mr. Stanislaus. Good morning, Chairman Barrasso and Senator 
McCain. I'm Mathy Stanislaus, Assistant Administrator for the 
U.S. EPA Office of Land and Emergency Management that is 
responsible for EPA's cleanup and emergency program. Thank you 
for the opportunity to appear here today.
    I'm also accompanied by EPA Regional Administrator Jared 
Blumenfeld, who is responsible for Arizona, among other states. 
So he's going to join me in terms of specific questions.
    The U.S. EPA has a long history working closely with Indian 
tribes, and is one of the first Federal agencies with the 
formal policy specifying how it would interact with tribal 
governments and consider tribal interests in carrying out its 
programs to protect public health and the environment.
    The EPA policy for the administration of environmental 
programs on Indian reservations signed in 1984, remains the 
cornerstone of EPA's Indian program.
    The EPA continues to enhance our effort to work with tribes 
based on constitutional authorities, treaties, laws, executive 
orders, and a long history of Supreme Court rulings.
    We are also strengthening our cross-cultural understanding 
with tribes, recognizing that tribes have cultural, 
jurisdictional and legal features that must be considered when 
coordinating and implementing environmental programs in Indian 
country.
    EPA issues its first-ever Tribal Treaty Rights Guidance, 
issued February of this year. The guidance will further 
strengthen EPA's close partnership with tribal communities by 
initiating meaningful discussions with tribes about their 
partnership with tribal communities be initiating meaningful 
discussions with tribes about their treaty rights during 
consultation.
    The Guidance will also support the Agency's continued 
efforts to learn from and expand our collaborations with tribes 
as we work to achieve our shared mission of protecting human 
health and the environment.
    My office has supported the development of tribal cleanup 
and response programs through funds through federally 
recognized tribes who are Superfund authority. More than a 
hundred tribes have received funding over the years.
    In fiscal year 2015, more than $12.7 million was allocated 
to 106 tribes for their tribal response programs.
    These programs have resulted in the Tribes cleaning up over 
a thousand tribal properties, and resulted in about 3,600 acres 
being made available and being protected.
    Specifically, with the EPA Region 9, more than $15 million 
was awarded last year to invest in Arizona tribes, including 
the Navajo Nation, for environmental programs, water, and 
wastewater infrastructure development, community education and 
capacity building.
    Since 1984, the EPA has provided more than $93 million to 
support the Navajo Nation's leadership in establishing their 
own environmental programs.
    In addition, the EPA Region 9, partnered with five other 
Federal agencies, and in consultation with the Navajo Nation 
developed and implemented a five-year plan in 2008 to address 
the human health and environmental risks posed by radiological 
contamination associated with the abandoned uranium mining 
sites on Navajo Nation lands.
    The EPA and its Federal partners have expended more than 
$100 million to reduce the highest risks to Navajo people by 
remediating contaminated homes, providing drinking water, and 
conducting urgent cleanup actions.
    Much more work remains. Under the leadership of Regional 
Administrator Blumenfeld working with the same Federal 
agencies, we issued a second five-year plan to continue our 
work with respect to uranium-contaminated mines.
    In January of this year, I met with Navajo President 
Russell Begaye to discuss addressing the historic problems of 
abandoned mines that has degraded water quality over the 
decades.
    Gold King Mine, and the three other adjacent mines alone, 
emit 330 million gallons of contaminated wastewater into Cement 
Creek and Animus River every year.
    President Begaye specifically requested a long-term 
restoration of the river to occur by addressing the emissions 
of wastewaters from these long abandoned mines in the West 
through the Superfund national listing process.
    EPA conducted extensive outreach with the Navajo, with 
tribes and communities. And just recently we had proposed the 
listing of a number of mines to restore a long-term restoration 
of the river.
    This consists of 48 mines, including the Gold King Mine, 
which collectively discharge 5.5 million gallons a day, every 
day, and continues to this day. A public comment period 
continues at this moment.
    EPA has been working with the state of Colorado to prevent 
contaminated abandoned mine discharges that plague the water 
resources and the Animus River watershed for decades. As part 
of this effort, an accidental release did occur of about 300 
million gallons from the Gold King Mine last year.
    After the accidental release, EPA closely coordinated with 
our Federal partners, with officials in Colorado, New Mexico, 
Utah, the Southern Ute, Ute Mountain tribes and Navajo Nation 
who all provided personnel for the unified command center or 
incident command. I also met with the inter-tribal council of 
Arizona to address spill response during that event.
    One of the initial lessons learned from the aftermath of 
the incident is that EPA could do a better job in communicating 
and working with our state and tribal partners. To support 
enhanced notification, I issued a memo to all the regions to 
make sure there is expanded notification.
    And it should be noted that all notifications did occur 
before the plume arrived at any of the locations so that the 
tribes and communities can take action.
    To date, the EPA has expended $22 million in response 
efforts. Including $1.1 million to provide more than 1 million 
gallons of agricultural and livestock water. And nearly 9,000 
bales of hay for the Navajo communities along the San Juan 
River.
    The EPA has also provided more than 150,000 reimbursement 
to Navajo Nation for their response course, and are working to 
respond to more of their requests with the Navajo Nation.
    The agency has allocated 465,000 to the Navajo Nation to 
monitor water quality conditions in this river. This is in 
addition to the more than $1 million of Clean Water Act based 
funding provided to the Navajo Nation in October 2015 to 
provide water quality monitoring support and water quality 
compliance and fund sediment remediation projects.
    During our ongoing engagement with tribes, states, and 
local communities, EPA has received a request for real-time 
water monitoring, particularly related to the expected increase 
in spring water rates.
    EPA is committed to enable the states and tribes to install 
real-time monitoring in the upper Animus River so that they can 
take actions based on their monitoring results.
    EPA's core mission is protecting human health and the 
environment. We will continue our longstanding commitment to 
consult with tribes, respectful of their sovereignty to protect 
public health and the environment.
    We will continue to work with and support the tribes, 
states, and local communities throughout the four corners 
region who are relying on the Animus and San Juan rivers for 
their drinking water, irrigation water, and recreation.
    We know how important rivers are to them. And we're 
committed to work in collaboration to restore the health 
through this long-term strategy.
    Thank you.
    [The prepared statement of Mr. Stanislaus follows:]

 Prepared Statement of Hon. Mathy Stanislaus, Assistant Administrator, 
Office of Land and Emergency Management, U.S. Environmental Protection 
                                 Agency
    Good morning Chairman Barrasso and Members of the Committee. I am 
Mathy Stanislaus, Assistant Administrator for the U.S. Environmental 
Protection Agency's (EPA) Office of Land and Emergency Management 
(OLEM) that is responsible for EPA's cleanup and emergency response 
program. I am joined today by Jared Blumenfeld, Regional Administrator 
for EPA Region 9, which serves Arizona, California, Hawaii, Nevada, 
Pacific Islands, as well as 148 Tribal Nations. Thank you for the 
opportunity to appear today to discuss the EPA's work with and 
engagement with Indian tribes.
    The U.S. Environmental Protection Agency has a long history of 
working closely with Indian tribes and was one of the first federal 
agencies with a formal policy specifying how it would interact with 
tribal governments and consider tribal interests in carrying out its 
programs to protect human health and the environment. The EPA Policy 
for the Administration of Environmental Programs on Indian 
Reservations, signed in 1984, remains the cornerstone for EPA's Indian 
program.
    The EPA's work with tribes is facilitated through the National 
Tribal Caucus (NTC), a national body of high-level tribal advisors. 
Members are selected on a regional basis by each Regional Tribal 
Operations Committee (RTOC) or its equivalent, and represent all tribes 
within their regions. Their primary focus is to identify and address 
tribal environmental issues that are national in scope, cross-agency or 
cross-media in nature, or that may be emerging or time-critical.
    Through consultation, collaboration, and shared accountability, the 
EPA continues to strengthen its partnerships with tribes to help ensure 
the success of the national environmental program. The EPA focuses on 
increasing tribal capacity to establish and implement environmental 
programs while ensuring that our national programs are as effective in 
Indian country as they are throughout the rest of the Nation.
    Under this policy, the EPA is also enhancing our effort to work 
with tribes based upon constitutional authorities, treaties, laws, 
executive orders and a long history of Supreme Court rulings. We are 
also strengthening our cross-cultural understanding with tribes, 
recognizing that tribes have cultural, jurisdictional and legal 
features that must be considered when coordinating and implementing 
environmental programs in Indian country.
    After engagement with our tribal partners and reviewing feedback 
received at the 2014 White House Tribal Nations Conference, the EPA 
undertook an effort to further preserve the resources protected under 
treaties. The EPA issued a memo to agency offices stressing the 
importance of honoring tribal rights and the resources protected by 
treaties and directed the development of agency-wide guidance. Where 
the EPA has the discretion and opportunity to do so, EPA programs 
should be implemented to enhance protection of tribal treaty rights and 
treaty-covered resources to honor our trust relationship with tribes.
    This effort produced EPA's first-ever Tribal Treaty Rights 
Guidance, issued in February of this year. The Guidance will further 
strengthen EPA's close partnership with the tribal community by 
initiating meaningful discussions with tribes about their treaty rights 
during Consultation. The Guidance will help support the agency's 
continued efforts to learn from and expand our collaborations with 
tribes as we work to achieve our shared mission of protecting human 
health and the environment.
OLEM Tribal Activities
    EPA's Office of Land and Emergency Management and regional offices 
work in partnership with tribes as co-regulators to address solid and 
hazardous waste, emergency response actions, as well as land 
restoration and clean up issues in Indian country. The EPA seeks to 
build tribal capacity in assuming program management responsibilities 
for the cleanup and reuse of land, as well as to forge strong 
partnerships with tribes and engage tribes in meaningful dialogue and 
information sharing in a timely manner.
    EPA headquarters offices are responsible for providing national 
policy direction and support for OLEM's tribal work. Working in 
collaboration with EPA's regional offices, the EPA works with tribes to 
enhance capacity and participation in the environmental decision-making 
process. Through a wide array of program activities, OLEM works with 
interested tribal government to help ensure that land is cleaned up and 
restored.
    To facilitate our continued work with tribes, OLEM, in cooperation 
with EPA's Office of Water, awarded a new five-year cooperative 
agreement in 2014 totaling $2.9 million to the Institute for Tribal 
Environmental Professionals (ITEP) located at Northern Arizona 
University, to support the Tribal Waste and Response Assistance Program 
(TWRAP). Building off the successful work that started through a 2008 
award, ITEP continues to strengthen and expand its training, technical 
assistance, and resources to Native American tribes and Alaska Native 
Villages (NA/ANV) for subjects related to solid and hazardous waste, 
resource conservation, brownfields, Superfund, underground storage 
tanks, emergency response, and water infrastructure. The program 
supports a national Steering Committee of tribal professionals, the 
tribal Superfund Working Groups, as well as the Tribal Lands and 
Environment Forum, a key training event for tribal environmental 
professionals. This training, technical assistance and targeted 
outreach provides an opportunity to address the many barriers and 
challenges tribes experience when it comes to restoring and preserving 
our land.
    We have been helping to ensure that tribal needs and priorities are 
addressed in EPA's budget and planning documents, by supporting the 
work of the Tribal Waste and Response Assistance Program Steering 
Committee that issued their first ever Priorities Document to OLEM and 
our senior management. This document provided key insights for the 
programs to consider in developing future areas to prioritize and fund.
    To address contaminated properties, OLEM has supported the 
development of tribal response programs. The Brownfields State and 
Tribal Response Program provides cooperative agreement funds to states 
and federally recognized tribes under Comprehensive Environmental 
Response, Compensation, and Liability Act (CERCLA or Superfund) 128(a) 
authorities. More than 100 tribes have received 128(a) funding over the 
years. In Fiscal Year 2015, more than $12.7 million dollars was 
allocated to 106 tribes for their tribal response programs. These 
programs have 1,034 tribal properties enrolled and have resulted in the 
cleanup of 388 properties, totaling 3,654 acres. In addition, in FY 
2015, the EPA provided $800,000 of CERCLA 104(k) funding that supported 
assessment, job training, and revolving loan fund grants. Together, 
these two programs have supported the creation of 191 jobs, 
approximately $20 million additional funds leveraged, and 9 property 
clean ups and 48 site assessments completed in Indian country.
    OLEM also supported efforts to increase capacity and help ensure 
tribes are trained on how to inspect, develop, and implement hazardous 
waste and hazardous waste programs, which includes the collection and 
disposal of household hazardous waste. The EPA provided funding to 
tribes through the Hazardous Waste Management Grant Program. Further, 
to help ensure tribal communities have a better understanding of the 
technical issues related to a Superfund cleanup and key considerations 
for a site's future use, in FY 2015, the EPA provided technical 
assistance to tribes by funding 32 cooperative agreements with 12 
different tribes, totaling approximately $8.6 million.
    In addition, in 2008, the EPA partnered with the Bureau of Indian 
Affairs, the Nuclear Regulatory Commission, the Department of Energy, 
the Indian Health Service, and the Agency for Toxic Substances and 
Disease Registry, and in consultation with the Navajo Nation, developed 
and implemented a Five-Year Plan to address human health and 
environmental risks posed by radiological contamination associated with 
abandoned uranium mining sites on the Navajo Nation. The EPA and its 
federal partners expended more than $100 million to reduce the highest 
risks to the Navajo people by remediating 47 contaminated homes, 
providing drinking water to more than 3,000 homes, and conducting 
urgent cleanup actions at 9 mine sites. Much work remains and the same 
federal agencies collaborated to issue a second Five-Year Plan in 2014. 
The second Five-Year Plan builds upon the work of the first plan to 
address the most significant risks to human health and the environment. 
Over the next five years, the Navajo Nation plans to assess and scan 
100 homes per year, with the EPA planning to conduct remediation at up 
to ten homes per year depending on the number of homes found to pose a 
health risk.
EPA's Longstanding Relationship with the Navajo Nation
    EPA's Pacific Southwest Office (Region 9) serves the Navajo Nation 
and 147 other federally recognized tribes within Arizona, California, 
and Nevada, on whose lands we retain responsibilities for directly 
implementing federal environmental statutes. Last year, more than $15 
million was awarded to invest in Arizona tribes, including the Navajo 
Nation, for environmental programs, water and wastewater infrastructure 
development, community education and capacity building. These grants 
will help support the significant accomplishments that have been 
achieved through the collaborative efforts of the tribes in Arizona, 
the Navajo Nation, and the federal government. Since 1984, the EPA has 
provided more than $93 million to support the Navajo Nation's 
leadership in establishing their own environmental programs.
Addressing Impacts to the Animas River
    Many decades of mine drainage has degraded water quality and 
contaminated sediment in the Upper Animas watershed and downstream 
water resources. Based upon 2009-2014 flow data, roughly 330 million 
gallons of contaminated mine water from four mines discharged annually 
into Cement Creek and the Animas River. Our most recent studies 
indicate more than 3,700 gallons per minute, or 5.4 million gallons per 
day, of mine wastewater is being discharged from 32 mines in the 
watershed.
    In January of this year, I met with Navajo President Russell Begaye 
to discuss addressing these impacts through Superfund National 
Priorities Listing process. The EPA conducted extensive outreach with 
local communities, tribes, and states during the fall of last year and 
winter of this year to discuss the potential listing of abandoned mines 
in the Upper Animas Watershed to the Superfund National Priorities List 
(NPL). After months of engagement and receiving support from the Navajo 
Nation, the state of Colorado, and local governments, the EPA proposed 
adding the Bonita Peak Mining District site in San Juan County, 
Colorado to the NPL on April 7 of this year, to address the discharge 
of water from abandoned mines posing a risk to public health and the 
environment. The proposed Bonita Peak Mining District site consists of 
48 mining related sites, including the Gold King Mine. A public comment 
period is underway to solicit comments regarding the NPL proposal.
    Mutual respect and accountability, rooted in EPA's 1984 Indian 
Policy, and recognition of the sovereignty of the Navajo Nation, 
Southern Ute and Ute Mountain tribes has been the foundation of our 
long-standing partnership. The EPA recognizes that partnership has been 
challenged by the accidental August 5, 2015 Gold King Mine release. We 
all share the same goal, protecting human health and the environment 
today, and for future generations. We are hopeful that this partnership 
will allow us to achieve this goal.
    After the August 5 accidental release, EPA and Colorado officials 
informed downstream jurisdictions within Colorado the day of the event 
and before the plume reached drinking water intakes and irrigation 
diversions. The following day, other downstream jurisdictions were 
notified, again, before the plume reached drinking water intakes and 
irrigation diversions. The EPA deployed federal On-Scene Coordinators 
and other technical staff within 24 hours to Silverton and Durango 
Colorado, Farmington, New Mexico and the Navajo Nation to assist with 
preparations and first response activities in these jurisdictions.
    In addition, the agency activated its Emergency Operations Center 
in Washington D.C. and established a Unified Command Center in Durango, 
Colorado and an Incident Command in Farmington, New Mexico to help 
ensure coordination among its regions, laboratories and national 
program offices. The EPA closely coordinated with our federal partners 
and with officials in Colorado, New Mexico, Utah, the Southern Ute and 
Ute Mountain Ute tribes and the Navajo Nation who all provided 
personnel for the Unified Command Center and/or Incident Command. I 
also met with the Inter-Tribal Council of Arizona to address the EPA's 
spill response.
    One of the initial lessons learned in the aftermath of the 
accidental Gold King Mine release is that the EPA could improve its 
communications regarding releases and other environmental events that 
may affect multiple jurisdictions. To support response related 
notifications and communications between the EPA and our state, tribal 
and local partners, I issued guidance to Regional Response Teams 
(comprised of representatives from the EPA, other federal agencies and 
states) to strengthen their Regional Contingency Plans, particularly 
regarding the need to alert and coordinate with responders in 
downstream alerts.
    As part of the response efforts, water quality samples were 
collected throughout the water system from multiple locations in 
Colorado and New Mexico to the Navajo Nation at daily intervals 
beginning on August 6, 2015. \1\ Sediment sampling began on August 11, 
2015. The EPA has also sampled private domestic drinking water wells 
from along the rivers in both Colorado and New Mexico. Drinking water 
well data was provided directly to the well owner. Results consistent 
with this sampling data were utilized by jurisdictions along the Animas 
and San Juan Rivers to lift water use restrictions for irrigation, 
livestock watering, and recreational purposes.
---------------------------------------------------------------------------
    \1\ See: http://www2.epa.gov/goldkingmine/data-gold-king-mine-
response
---------------------------------------------------------------------------
    The EPA has expended more than $22 million on response efforts, 
including $1.1 million to provide more than 1 million gallons of 
agricultural and livestock water and nearly 9,000 bales of hay for 
Navajo communities along the San Juan River. The EPA has also provided 
more than $157,000 in reimbursement to Navajo agencies for their 
response costs. We are currently reviewing additional costs incurred by 
the Navajo government.
    The first round of sampling conducted last fall under EPA's Post-
Gold King Mine Conceptual Monitoring Plan for the San Juan River did 
not show exceedances of Navajo Nation agricultural water quality 
standards, or of EPA recreational screening levels. The EPA has shared, 
and will continue to share its data and analysis with the Navajo 
Nation, and is fully open to reviewing and discussing any data or 
analysis generated by their government or other investigators. The 
agency has allocated $465,000 to the Navajo Nation to monitor water 
quality conditions in the river, this is in addition to the more than 
$1 million of Clean Water Act based funding provided to the Navajo 
Nation in October 2015 to perform water quality monitoring, support 
water quality compliance efforts, and fund sediment reduction projects.
Public Information--Water Quality Monitoring Efforts
    One of our foremost priorities during the response has been to 
collect and publicly release information to help ensure the health and 
safety of affected communities. Since the August release, numerous 
status reports, water and sediment sampling results, and documents have 
been posted on the agency's Gold King Mine website.
    On March 24 of this year, the EPA released its final monitoring 
plan for the Animas and San Juan rivers. The final Conceptual 
Monitoring Plan is posted on EPA's website. The agency also posted on 
its Gold King Mine website another round of results of surface water 
and sediment sampling collected as part of its effort to gather 
scientific data to evaluate ongoing river conditions.
    The Conceptual Monitoring Plan will guide EPA's work to identify 
changes in surface water and sediment quality. It is designed to gather 
scientific data to consistently evaluate river conditions over time and 
compare post-release data against pre-release or historic trends. The 
EPA has also been working with tribal, state, and other partners to 
develop a consistent monitoring approach to gather scientific data to 
assess conditions in the Animas and San Juan rivers. The EPA has made 
$2 million in initial funding available to launch these additional 
tribal and state monitoring efforts.
    Under the Conceptual Monitoring Plan, the EPA is examining water 
quality, sediment quality, biological community and fish tissue at 30 
locations under a variety of flow and seasonal river conditions. The 
sampling locations are located within Colorado, Southern Ute Indian 
Reservation, New Mexico, Ute Mountain Ute Reservation, the Navajo 
Nation and Utah, spanning Cement Creek, the Animas and San Juan rivers, 
and the upper section of the San Juan arm of Lake Powell.
    When fully implemented, the monitoring plan will provide the EPA, 
state, local governments and tribes a robust set of scientific data 
about water quality in the rivers and will help to explain the 
fluctuations over time and location based on seasonal factors that 
influence river flow, such as precipitation and snow melt. Initial 
monitoring data collected during the fall are below risk-based 
recreational screening levels and consistent with pre-event data which 
are limited in many areas outside the upper Animas. The spring sampling 
event is currently taking place, and will be followed by additional 
sampling planned in June and in the fall of 2016. The EPA will also 
coordinate with local jurisdictions and tribes to sample the rivers 
during heavy rain events in the summer.
    During our ongoing engagement with tribes, states, and local 
communities, the EPA has received requests for real-time water 
monitoring, particularly related to expected increased spring flow 
rates. The EPA has agreed to contribute additional funds, that in 
combination with prior funds, will enable states and tribes to fund 
real-time monitoring in the upper Animas area above Silverton to assess 
contributions from Cement Creek, Mineral Creek and the upper Animas, as 
well as above Durango and below the confluence of Mineral Creek and the 
Animas River. This real-time monitoring would also serve to ensure 
successful coordination and implementation of notification and 
preparedness activities for communities downstream.
Conclusion
    The EPA's core mission is protecting human health and the 
environment. We will continue our longstanding commitment to working 
with tribes to accomplish our shared mission. We will continue to work 
with and support the tribes, states, and local communities throughout 
the Four Corners Region who rely on the Animas and San Juan Rivers for 
their drinking water, irrigation water and recreation. We know how 
important the rivers are to them, and the EPA is committed to continue 
to take action to help prevent future releases to protect our vital 
water resources.

    The Chairman. Thank you very much Administrator Stanislaus 
for being with us today. I'd like to now turn to the Honorable 
Russell Begaye, President of the Navajo Nation. Welcome.

   STATEMENT OF HON. RUSSELL BEGAYE, PRESIDENT, NAVAJO NATION

    Mr. Begaye. Thank you, Chairman Barrasso and Senator 
McCain. Senator McCain especially, thank you for taking the 
challenge on having this follow-up hearing. And Chairman 
Barrasso for stating that we're not finished yet. ``We are 
going to have further hearings,'' that is music to our ears, 
because if you look at that right there, is that anyone looking 
at that picture right there, should be not only mad but also 
afraid that this is going to continue, as has been stated just 
now, is that you have millions of gallons of these contaminates 
coming onto Navajo land, and nothing, nothing, nothing has been 
done.
    And so we want the wrong to be right. And it hasn't been 
done yet. Only 8 percent of what EPA owes us has been paid to 
us, 8 percent. And this is going on for months.
    Let me tell you, if another company, a private company did 
this and they took responsibility for it, guess what, there 
will be people in jail, there will be public hearings, the 
company will be shut down, and the company will be forced to go 
out into the river beds and pick up those contaminates off the 
river bed.
    Has it happened on Navajo land? Nothing has happened. And 
so we appreciate the hearing, because we want the wrong that's 
been done to Navajo--especially our farmers are suffering right 
now.
    You know, we're not flushing out the irrigation ditches. 
And the farmers are afraid. Because they know that there are 
contaminates up river. When the water spikes, when it goes up, 
when there's a monsoon, we know that those contaminates upriver 
will flow down onto our land, onto possibly our farms.
    So we're going to keep a very close watch on that. We asked 
for a mobile lab. Mobile lab has not been provided ever. It was 
promised but never been delivered. We want a mobile land on the 
ground so that when the water spikes, we will test it 
immediately. And that will determine whether we shut down the 
irrigation gates or not.
    And we need that. We need those tools. So I appreciate the 
testimony on the Gold King Mine spill today.
    We're just saying simply that U.S. EPA today has not fully 
compensated the Navajo Nation or individual Navajo people for 
the harm suffered as a result of the Gold King Mine spill. The 
farmers, my people, they have not been compensated.
    The standard Form 95 has not been altered, has not been 
amended, meaning this, is that when a farmer submits a claim is 
that, when they get a check from EPA, that's it. That's all 
they're going to get.
    And if they submit a claim for the first three weeks or six 
weeks after the spill and the consequences of us shutting down 
the irrigation to protect our land, is that when they submit it 
and they get a check from EPA, guess what, that's it. They're 
not going to get anymore, even though as farmers, as I was 
raised on a farm. And so there's continuing loss that occurs 
when that kind of event takes place.
    And so there will be continuing contamination, there will 
be continuing damage that will be done. And so that standard 
Form 95 needs to be amended. There needs to be a language that 
says, ``We will waive this.''
    Now, they're saying, ``Well, you have two years.'' You 
know, that means that our farmers will have to wait two years 
to get compensated. And these guys, the farmers, live off the 
land. That is their revenue. The products that they produce, 
that's what they sell and that's how they pay their bills. 
That's how they put food on the table. And that's what sustains 
them. And to wait for two years is nonsense, you know.
    And this basic human right is being violated by that 
standard Form 95. We want that thing amended. We want new forms 
put forth. And EPA says, ``Well, that's the law.''
    You know, the laws are always brought up and put in our 
face when these types of things happen to Indian people. To 
Navajo Nation specifically.
    And, secondly, we want U.S. EPA to designate the upper 
Animus mining district as a Superfund site. And I was 
disappointed when the list came out recently. It said these are 
the NPL sites. And I look on there, thinking that Gold King 
Mine would be a part of that, but it was not a part of that. 
And you read down the next section, it says, well, it's being 
recommended that this will be designated as such.
    So meaning that to this day--that to date, this very day on 
Earth Day, the Gold King Mine is not on the NPL listing. 
Superfund site has not been designated for Gold King Mine.
    And the mines are ready to explode. And EPA knew that Gold 
King Mine was going to explode. They knew that. They had the 
information, did nothing about it.
    And back in Washington, D.C., they said they will hold 
themselves fully accountable. Has that happened? Navajo Nation, 
that has not occurred.
    And so I just want to, again, thank the Committee for 
allowing us to be here today. And I also wanted to say that the 
tools have not been provided. The harm is there. Our people are 
still suffering today. And we appreciate the Committee allowing 
us to come and testify today.
    Thank you.
    [The prepared statement of Mr. Begaye follows:]

  Prepared Statement of Hon. Russell Begaye, President, Navajo Nation
I. Introduction
    Ya'at'eeh (hello) Chairman Barrasso, Ranking Member Tester, and 
Members of the Committee. My name is Russell Begaye, and I am the 
President of the Navajo Nation. Thank you for this opportunity to 
testify before your Committee on an important matter that continues to 
affect the Navajo Nation every day.
    As you know, on Wednesday, August 5, 2015, the United States 
Environmental Protection Agency (USEPA), and other involved parties, 
caused a massive release of approximately three million gallons of 
acidic mine water laden with toxic contaminants, including heavy metals 
and other chemicals, into the Animas and San Juan Rivers. We now know 
that it was more than 800,000 pounds of metals that entered the Animas 
River as a direct result of the discharge from the Gold King Mine on 
that day. We also know that approximately 80 percent of the toxic 
materials released during the Spill have now settled into the sediments 
and shorelines of the Animas River and the San Juan River upstream of 
the Navajo Nation, waiting to be carried downstream during the heavy 
Spring runoff expected this season.
    The San Juan River courses through 215 miles of the Navajo Nation's 
territory and serves as a major water source for the Navajo people, 
their livestock, and their crops. The River also holds a profound 
spiritual significance to the Navajo Nation. The Gold King Mine Spill 
caused severe damage and devastation to our people. We have lost too 
much. Crops that served as many Navajo families' primary source of 
income and stability for generations have been destroyed. The Navajo 
people have redirected their scarce financial resources to alternate 
water supplies in desperate attempts to save their crops, their 
livestock, and their families.
    Unfortunately, the damage is not yet done. Because the toxic 
contaminants have been embedded in the sediment of the River, the 
Navajo Nation now faces the continuous threat of re-contamination with 
every storm and increase in River flow. The heaviest flow is typically 
felt in the Spring as a result of snowmelt, and we are currently 
experiencing a higher than normal volume of flow due to increased 
snowpack from winter storms. Although we will be aggressively 
monitoring and sampling the water throughout this season, there is 
nothing we can do to prevent the damage from occurring.
    Last Fall, you and I both heard from representatives of the USEPA, 
including Administrator McCarthy herself. The USEPA assured all of us 
that the EPA has and will continue to take responsibility to help 
ensure that the Gold King Mine release is cleaned up. They repeatedly 
vowed to take care of those affected by the Spill. And they promised to 
work closely and cooperatively with the States and Tribes to right the 
wrongs. But the USEPA has not fulfilled its commitments to us. I have 
spoken and written to Administrator McCarthy to lay out the Navajo 
people's reasonable requests to be made whole as a result of the Spill 
and to help us avoid future effects from this and other contaminations. 
But our needs continue to be unmet. I am here today to share with you 
our experiences over the past eight months and to request that the 
Congress intervene to protect the Navajo Nation and our Navajo people.
II. The USEPA Has Repeatedly Resisted and Questioned the Navajo 
        Nation's Demands
    It has been over eight months since the Gold King Mine Spill, an 
environmental catastrophe that caused and continues to cause extreme 
hardship to the Navajo Nation. Over this time, the USEPA has avoided 
any real sense of accountability for its actions, even though it 
repeatedly and publicly claimed responsibility last Fall. Eight months 
later:

        1)  The USEPA has yet to fully compensate the Navajo Nation or 
        individual Navajo people for the harms suffered as a result of 
        the Gold King Mine Spill.

        2)  The USEPA has yet to designate the Upper Animas Mining 
        District as a Superfund site.

        3)  The USEPA has yet to implement, with Navajo input, a 
        comprehensive plan to ensure no future contamination of Navajo 
        land or waters.

        4)  And the USEPA has yet to provide the Navajo Nation with the 
        tools it desperately needs to address the harms already caused 
        and to mitigate against future harms.

    It is time for the USEPA to stop making false promises and act.
    Over the past eight months, representatives of the Navajo Nation 
have engaged in numerous conversations with the USEPA in an effort to 
obtain justice for the Navajo people. Each one of our requests and 
suggestions has been unreasonably and disrespectfully denied and 
minimized.
    First, while the USEPA has technically agreed to engage in 
discussions regarding a ``cooperative funding agreement'' designed to 
cover the Nation's response costs, even that process has been met with 
resistance and counter-demands. The Navajo Nation submitted detailed 
paperwork delineating the resources the Nation expended as a direct 
result of the Gold King Mine Spill. These costs included things like 
hauling clean water to the Navajo people, assessing the extent of the 
Spill's impact to the Navajo farms, paying expenses related to 
irrigation canal closures, and more. The Nation's submission was 
practical and conservative. But the USEPA questioned the accuracy and 
reasonableness of our expenses. We requested a little over two million 
dollars in actual expenses incurred as a direct result of the Gold King 
Mine Spill. The USEPA's initial ``offer'' was insulting. After months 
of cooperating with the USEPA, the USEPA offered the Navajo Nation a 
mere $157,000--less than eight percent of what we spent. They claimed 
this was an initial award but we do not know when or in what amount 
will be the future awards. We cannot afford that. After the USEPA 
caused us to incur these expenses, they should not be able to slow play 
our recovery.
    To add insult to injury, the USEPA couched this insignificant 
amount as a ``grant'' to the Nation, thereby giving itself substantial 
control and oversight with respect to how the money is spent. The money 
was not even recognized as a reimbursement for costs spent as a direct 
result of the USEPA's actions in causing the Spill.
    Second, the Nation repeatedly requested from the USEPA an interim 
claims process that would provide prompt payment to the Navajo people 
on an ongoing basis, rather than forcing the Navajo people to either 
(a) wait for months or years to determine the total amount of the 
damage and money spent as a result of the Spill, or (b)--the more 
likely scenario--force the Navajo people to accept less than they are 
rightfully due simply because they need something to support their 
families now. The USEPA summarily brushed off this idea, claiming they 
did not have the authority to set up this sort of process. But this 
unprecedented Spill calls for new procedures.
    We then asked the USEPA for assurances that if a Navajo person does 
accept an award for current losses now, that they would still be 
permitted to seek further damages for unknown, future harms as a result 
of the spill (for example, if their children develop chronic diseases). 
The USEPA denied authority to do that, as well. Apparently the USEPA 
does not have the authority to address the problems caused by its own 
wrongdoing.
    These are just two examples of our requests that have been brushed 
aside and denied by the USEPA. Recently, I sent Administrator McCarthy 
a letter addressing our legitimate and narrow requests once again. In 
addition to the interim claims process mentioned above, we renewed our 
request for the following:

        1)  A fair and independent assessment of the role the USEPA, 
        and others, played in the events leading up to and causing the 
        Gold King Mine Spill.

    The House Committee on Natural Resources issued a report in 
February criticizing the USEPA's and Department of Interior's failed 
attempts to provide this assessment. Their investigations are riddled 
with conflicts of interest and information gaps, and do nothing to 
answer the ultimate outstanding questions: Who is at fault for the 
Spill? And who will be held accountable?

        2)  Resources to conduct our own water, sediment, and soil 
        monitoring; to conduct our own testing and assessment of farms, 
        crops, and livestock; and recognized authority for the Navajo 
        Nation EPA and the Navajo Nation Department of Agriculture to 
        do the necessary work.

    We have repeatedly asked the USEPA for funding to conduct necessary 
sampling to determine the extent of the harm caused by the Gold King 
Mine Spill, but the USEPA has resisted and tried to bind us to the 
results of its own sampling. As we have stated before, the Navajo 
Nation should not be required to trust sampling conducted by the same 
agency that caused the harm at issue. The conflict of interest in that 
scenario is obvious.
    The Nation would like an on-site laboratory on Navajo land, funding 
for additional staff and sampling, and funding for the Navajo Nation to 
execute its own long-term plan to address the harms caused by the 
contamination (including studying and addressing the contamination's 
long-term environmental and health impacts).
    We recently requested funding specifically dedicated to Spring 
runoff sampling and monitoring. As I mentioned earlier, approximately 
80 percent of the toxic contaminants released from the Gold King Mine 
on August 5, 2015, are now embedded in the sediments and shorelines of 
the Animas and San Juan Rivers. The Rivers' strongest water flows occur 
during the Spring season. We are now enduring the first Spring since 
the Spill--and a particularly heavy runoff period--and it is crucial 
that we pay close attention to possible re-contamination of the River 
during these months. We need funding to do that. We don't want to incur 
further costs to conduct sampling due to the USEPA's misconduct, only 
to have the USEPA resist our requests for reimbursement as they have 
done in the past.

        3)  Coordinated and meaningful data and information access, 
        with full transparency and immediate turnaround.

    The USEPA has taken too long to turn data around. The objectives in 
the current version of the USEPA's conceptual monitoring plan do not 
provide for ongoing, timely reporting of water quality. Data collected 
during the first sampling event in late October 2015 was only made 
available to partner agencies on March 7, 2016--five months later--and 
still has not been released to the public. The USEPA needs to provide 
quick turnaround of its own data, so that we may do our job of 
protecting our people.

        4)  Identification and recognition of the full scope of 
        upstream threats and contamination flowing into the San Juan 
        River, and the resources to address the long-term environmental 
        and human health impacts of the Spill.

    This would include placement of a water treatment facility at the 
headwaters of the Navajo Nation and resources to explore alternative 
water supply systems in the event of an emergency. We cannot again be 
put in the position of having to pick between turning off the water and 
losing economic sustenance or turning on the water and risking our 
health and crops.

        5)  Recognition of the San Juan River's spiritual and cultural 
        significance to the Navajo Nation.

    The San Juan River holds a deeply embedded spiritual and cultural 
significance to the Navajo community. Contamination of the River takes 
a profound economic, cultural, and spiritual toll on our people. 
Indeed, the Nation has suffered a dramatic increase in suicides since 
the Spill. The psychological trauma resulting from contamination to one 
of our most important deities should not be ignored or minimized. We 
deserve recognition, from the agency that caused this contamination, 
that the damage goes far beyond economic and environmental damage, and 
the resources to address the emotional and psychological impacts of the 
Spill.

        6)  Funds dedicated to emergency preparedness for future 
        environmental disasters like the Gold King Mine Spill, given 
        the continued threat posed by the Upper Animas Mining District.

    Despite the warning signs indicating the chance of a blowout, the 
USEPA was unprepared for the Gold King Mine Spill. As we have discussed 
in the past, their immediate response to the spill was handled very 
poorly, and it took far too long for the Navajo Nation to receive 
notice. Once we received our delayed notice, we did not have much time 
to mobilize efforts and resources to respond quickly and effectively. 
Everyone knows that the Navajo Nation and other downstream communities 
face an ongoing threat of contamination from the mines in the Upper 
Animas Mining District. We need the resources to assure that we are 
adequately prepared to take care of our people in the event of another 
similar environmental disaster.

        7)  The USEPA's full support of listing the Upper Animas Mining 
        District on the National Priorities List.

    For a long time, we have requested that the Upper Animas Mining 
District be listed on the National Priorities List and that the 
contamination caused by that district receive the attention and 
resources that come with such a listing. As you are aware, town and 
county leaders in Silverton have, after the Spill, unanimously voted to 
begin negotiating with state and federal environmental officials on 
accepting a Superfund designation. This was significant. I further 
understand that the USEPA has now released its proposal that nearly 50 
mines in the district be designated a Superfund site. As of today, 
however, the Upper Animas Mining District is still not listed on the 
National Priorities List. We need the USEPA to act quickly to have the 
entire Upper Animas Mining District listed on the National Priorities 
List and for dedicated and focused federal resources to address the 
threat posed to the Navajo Nation and other downstream communities.

        8)  Resources to restabilize farming along the San Juan River.

    As I mentioned earlier, the Spill caused extensive damage to Navajo 
farms. Strains of crops that have been around for generations have been 
harmed, and in some cases, destroyed. Our people need resources to help 
rebuild the foundation that previously provided stability, support, and 
income to their families.
    In a March letter we sent to Administrator McCarthy, we asked the 
Administrator to propose a date within the next thirty days to meet to 
discuss these goals. We received her response letter this week and we 
will discuss the details of how we move forward with the USEPA, but I 
have to say, the Navajo Nation has lost further trust in the USEPA 
through this frustrating process.
III. Conclusion
    After over eight months, we are still waiting for the USEPA and 
other parties responsible for the Spill to make us whole by providing 
us with the resources needed to address the Spill and its continuing 
impacts to our community. We still do not have a clear understanding of 
how or why this happened, or who is to be held responsible. We need 
answers.
    The Navajo people are not wealthy. Before the Spill, we were 
already facing a daunting unemployment rate of 42 percent. Farming and 
ranching are critical means of survival and supporting a family. But 
ever since the Spill, the farmers and ranchers have had to spend money 
they don't have in a desperate attempt to salvage their crops and 
livestock. Our subsistence farmers and ranchers watched their crops die 
and relocated their livestock away from the River at great expense. 
Many have lost crucial sources of income and are still suffering. The 
Navajo people cannot afford to endure the complexities and 
uncertainties of the legal process for years before they see a dime. 
They need to be made whole now. We have asked for and deserve full, 
fair and fast recovery.
    The Navajo Nation continues to be eager to work cooperatively and 
equally with the USEPA to gear all parties toward a productive 
resolution. As is true for the people suffering in Flint, Michigan--to 
whom our hearts go out--we want justice for our people. As long as the 
USEPA continues to disrespect our needs, we cannot achieve that 
justice.
    It means a great deal to the Navajo Nation that your Committee is 
still focused on this matter after eight months. We are hopeful that 
the pressure from your Committee, the local States, and the local 
Indian nations will eventually force the USEPA and other responsible 
parties to cooperate and provide those harmed with the resources needed 
to move forward after this unfortunate catastrophe. We hope that the 
Congress will pass legislation to ensure full, fair, and prompt 
recovery for our people.
    Ahehee.' Thank you for your time and attention to this important 
issue.

    The Chairman. Thank you very much, President Begaye.
    I'd like to now turn to the Honorable Herman Honanie, who 
is the Chairman of the Hopi Tribe. Welcome, and please testify.

   STATEMENT OF HON. HERMAN G. HONANIE, CHAIRMAN, HOPI TRIBE

    Mr. Honanie. Thank you, Senator Barrasso, Senator McCain. 
Good morning.
    Thank you to President Begaye, Speaker Bates. Thank you for 
giving me this opportunity and allowing me to speak before you 
with our concerns.
    I am Herman Honanie, Chairman of the Hopi Tribe. I have 
matrilineal lineage to the oldest continuously community of 
Orayvi on the North American Continent, and I'm very proud of 
that.
    Senators, the United States has a special trust 
relationship with federally recognized Indian tribes, including 
the Hopi Tribe. However, recently there have been several 
missed opportunities for the EPA working with other Federal 
agencies to fully embrace the trust obligations of the United 
States to the Hopi Tribe.
    We have some current examples to share with the Committee. 
They are described in the written testimony we are submitting 
on behalf of the Hopi Tribe. And I will just briefly touch on 
them here.
    The first is the Navajo generating station. Despite the 
economic importance to the Hopi Tribe, the United States, a 
part owner of the plant, recently decided to shut down one or 
more of the three units at NGS rather than investing in 
standard pollution control devices.
    The Hopi Tribe has been asking the United States, its 
trustee to assist the Tribe in finding the replacement revenues 
for the substantial revenue generated by the coal use at the 
NGS, but there is currently no plan to do so.
    We have the Tuba City open dump. This formerly BIA-operated 
open dump site is being investigated by the EPA and BIA under 
the Superfund program.
    While the Tribe remains fully engaged in the regulatory 
process with EPA and BIA on their actions at the Tuba City open 
dump to complete the remedial investigations and feasibility 
study, the Tribe has become increasingly concerned that the 
Tribe's requirement for the cleanup will not be treated as 
applicable or relevant and appropriate requirements in the 
remedy selection process.
    The Hopi Tribe has had numerous discussions with EPA Region 
9 on this issue, nonetheless, to date EPA has not provided a 
commitment to the tribes requirement will be treated as ARARs.
    The third item is the Hopi Arsenic Mitigation Project. 
Certain water supply systems installed by the United States on 
the Hopi reservation have been shut down have been shown to 
contain arsenic at levels exceeding the limits.
    The Hopi Tribe continues to work with the United States to 
further the Hopi Arsenic Mitigation Plan we call the HAMP; 
however, this process has been very slow. And, meanwhile, the 
drinking water system at the Hopi Tribe continues to contain 
elevated arsenic concentrations.
    The Hopi Tribe is requesting that this Committee review the 
handling of this matter by the United States.
    While EPA and the Indian Health Service has been 
instrumental in the initial funding and planning for the HAMP, 
the funding for the pipeline to connect the replacement water 
wells to the villages has not yet been identified and made 
available.
    These are a few of the examples we are hoping that the 
Committee will help in its evaluation, and how the United 
States can better fulfill its obligations to the Tribe in the 
environmental and public areas.
    We know EPA and the Tribes can continue to improve the 
efforts to address the environmental problems in Indian country 
and look forward to better cooperation in this regard.
    And, also, I just want to say, Senators, that I'm very 
happy that we're discussing these issues today on Earth Day. I 
feel it's very, very appropriate.
    We have a saying in Hopi: Water is life, water is sacred. 
Without water, what is there?
    And when we talk about issues, such as what President 
Begaye explained, and our own issues--and maybe they may be 
small in comparison--but these issues, especially the open dump 
mine in Tuba City, and the arsenic, they affect and impact 
water. The long-term effect of health on our people is of great 
concern.
    I feel collateral damage is in the opening. It's coming. 
Something needs to be done. We need to work together to address 
these and correct these issues for the health of my people, for 
the survival of my people.
    And I'm glad that we're here today. You calling us here to 
testify, you calling on us sends a great and sharp and loud 
signal to Indian country that, hopefully, we'll renew our faith 
and confidence in the United States Congress and its 
leadership.
    I thank you for your time. I thank you for giving me the 
privilege to be here this morning.
    Thank you very much.
    [The prepared statement of Mr. Honanie follows:]

   Prepared Statement of Hon. Herman G. Honanie, Chairman, Hopi Tribe
    The United States has a special trust relationship with federally 
recognized Indian tribes, including the Hopi Tribe. The Hopi Tribe has 
occupied what is now the Hopi Reservation in Arizona since time 
immemorial and has had a long and peaceful relationship with the United 
States. The United States officially recognizes the Hopi Tribe, 
acknowledging that the Hopi Tribe is entitled to ``the immunities and 
privileges available to federally recognized Indian tribes by virtue of 
[its] government-to-government relationship with the United States. . 
.'' 80 Fed. Reg. 1,943 (Jan. 14, 2015). However, recently there have 
been several missed opportunities for the EPA, working with other 
federal agencies, to fully embrace the trust obligations of the United 
States to the Hopi Tribe. We have some current examples to share with 
the Committee summarized below. Additionally, with regard to proposed 
and future regulation of coal fired power plants in Indian Country, we 
submit that the United States, as part of its trust responsibilities to 
Tribes, make sure to off-set adverse economic impacts on Tribes, so 
that Tribes to not end up bearing a disproportionate burden.
    The Hopi Tribe respectfully requests that this committee review the 
mandatory trust obligations of the United States under applicable 
statutes in the environmental and public health areas because the 
federal courts have been reluctant to adequately enforce these 
obligations unless they are enumerated by statute. We believe that the 
federal trust obligations to tribes are falling through the cracks as a 
result, particularly when EPA and other federal agencies are involved, 
and the tribes have inadequate means to enforce these obligations. 
Several specific examples involving the Hopi Tribe are set out below.
Navajo Generating Station
    The Navajo Generating Station (NGS) is a coal-fired power plant 
located near Page, Arizona on the Navajo Reservation. It is unique as a 
``mine-mouth'' power plant. NGS exclusively uses coal from the Kayenta 
Mine Complex (KMC), which is located on the Navajo and Hopi 
reservations, and KMC's only customer is NGS. KMC is geographically 
isolated, and currently there is no way to sell coal mined there to any 
other potential purchaser. NGS and KMC were designed by the United 
States as a single integrated system. The U.S. Bureau of Reclamation 
owns a 24.3 percent interest in NGS, and, as such, is the largest NGS 
shareholder. The U.S. Department of the Interior, the U.S. Department 
of Energy, and the U.S. EPA have formed a Federal Agency Work Group for 
NGS.
    Activities related to NGS are responsible for a major portion of 
the revenues of the Hopi Tribe's government. The Hopi Tribe annually 
receives approximately $13 million in coal royalties and bonus 
payments, $1.6 million in water fees, and hundreds of thousands of 
dollars in scholarship funds related to KMC and NGS. The Hopi Tribe 
uses the NGS coal revenues for the provision of basic services and 
other essential government functions such as health care, education, 
housing, law enforcement, and social services. These services are 
crucial, but without any replacement of the lost revenues, the Hopi 
Tribe's goverment will not be able to provide them.
    The Hopi Tribe has communities challenged by poverty. Nearly fifty 
percent of the people and fifty-four percent of the children living on 
the Hopi Reservation are living below the poverty level by federal 
standards. This is more than twice that of Arizona as a whole. The 
average annual income on the Reservation is half that of the population 
elsewhere in Arizona. Of the employment that is available on the 
Reservation, NGS and KMC are responsible for fifty to seventy percent 
of it--an estimated 1,400 to 1,900 Hopi jobs.
    Despite the economic importance to the Hopi Tribe, the United 
States recently decided to shut down one or more of the three units at 
NGS rather than investing in standard pollution control devices known 
as Selective Catalytic Reduction Equipment (SCRs). EPA determined in 
February, 2013, that SCRs were the Best Available Retrofit Technology 
(BART) for NGS, and installation at NGS would be affordable and cost-
effective. Proposed Rule, 78 Fed. Reg. 8,274 (Feb. 5, 2013). EPA also 
recognized that early plant retirement would be the only option that 
would seriously harm the Hopi Tribe's economy.
    After publication of the Proposed Rule, a number of stakeholders, 
including the U.S. Bureau of Reclamation, formed a ``Technical Work 
Group'' (the ``TWG''). EPA was also involved with the TWG to a lesser 
extent. The Hopi Tribe was intentionally excluded from the TWG by the 
United States and the other TWG members. From at least March through 
July, 2013, the TWG met pursuant to a confidentiality and non-
disclosure agreement.
    The result of these negotiations was the TWG Agreement, which set 
forth a proposal for an alternate scenario to reduce emissions from 
NGS. The United States signed the TWG Agreement, which imposes specific 
requirements on the United States to support the TWG Proposal. The TWG 
Proposal included shutting down one of three units at NGS by 2019 and 
permanent cessation of conventional coal-fired generation by the end of 
2044. 79 Fed. Reg. 46,514 (Aug. 8, 2014). In other words, under the TWG 
Proposal negotiated and agreed to by the United States, NGS will be 
closed partially by 2019 and completely by 2044. Coal sales and 
royalties, water fees, and economic conditions on the Hopi Reservation 
will follow suit. The day the TWG Proposal was submitted to EPA was the 
first time that the Hopi Tribe learned of the existence of the TWG. EPA 
adopted the TWG Proposal. Supplemental Proposed Rule, 78 Fed. Reg. 
8,274 (Oct. 22, 2013).
    After publication of the Supplemental Proposed Rule, the Hopi 
Tribe, including the Chairman, Council members, and Tribal members 
participated in meetings with the United States to voice their concerns 
about the economic effects of this decision on the Tribe and to request 
additional information that would help the Tribe further understand how 
the Supplemental Proposed Rule would impact the Tribe, its members, its 
lands and how its trustee, the United States, was planning to address 
this impact. At this point, however, the United States had already 
signed the TWG Agreement and the Hopi Tribe's opportunity for early 
meaningful consultation was lost. Even though it recognized that the 
Hopi Tribe would be severely adversely impacted financially, the United 
States failed even to analyze or address those impacts. The United 
States, the Hopi Tribe's trustee, has failed to put a plan in place to 
address the loss of revenues and resulting impacts to the Hopi Tribe. 
On August 8, 2014, EPA issued the Final Rule, largely adopting the TWG 
Proposal. Final Rule, 79 Fed. Reg. 46,514 (Aug. 8, 2014).
    A review shows that multiple generating stations in Indian Country 
have been forced into closure by EPA. Indian Tribes are 
disproportionately impacted by these closures. A number of tribe's 
economies are dependent on these plants, and there is inadequate 
mitigation being provided to these tribes. As appropriate, we can share 
this additional information with the Committee in a follow-up meeting. 
The Hopi Tribe has engaged in extensive discussions and negotiations 
with the United States concerning ways to offset the economic impact 
that EPA's rule will have on the Hopi Tribe but no resolution has been 
reached to date. EPA should be required to review its enforcement 
initiatives to determine whether EPA is acting in accordance with its 
trustee duties.
Tuba City Open Dump Superfund Site, Upper Moenkopi Village, Arizona
    The Tuba City Open Dump (TCOD) lies south of Highway 160, south and 
east of Tuba City, Arizona and adjacent to the Upper Moenkopi Village 
of the Tribe. The TCOD was operated as an unregulated open-burn dump by 
the United States Bureau of Indian Affairs (BIA) from the late 1950s 
until 1997. The TCOD was not approved or permitted as a solid waste 
disposal facility under any provision of the Resource Conservation and 
Recovery Act (RCRA).
    The TCOD was largely operated as an unregulated cut-and-fill trench 
type dump. BIA periodically excavated trenches for waste deposition. 
The trenches were filled with waste, burned, and periodically covered 
with soil by BIA. Dumping was largely uncontrolled and unsupervised by 
the BIA. The cycle of opening trenches, depositing wastes, burning the 
waste, and covering the waste continued until 1997, when the TCOD was 
closed by the BIA.
    The TCOD occupies approximately 30 acres, and is comprised of an 
``old cell'' and a ``new cell.'' The old cell comprises approximately 
10 acres, while the new cell, developed in the late 1980's, comprises 
approximately 20 acres. BIA covered the waste in the new cell and 
constructed a fence around that cell. More recently, in 2009, BIA 
constructed a fence around the old cell.
    The TCOD was used by both the BIA and the Indian Health Services 
and may have been used by other departments of the United States 
government and their contractors. There is information developed by the 
BIA that wastes from a nearby uranium processing mill (operated by Rare 
Metals at the direction of the Department of Energy) were deposited in 
the TCOD. Recently, grinding balls of the type used at the processing 
mill was found in the old cell. Further, there were numerous reports of 
``marbles'' matching the description of the mill grinding balls being 
found in the TCOD.
    The Hopi Tribe has conducted initial environmental studies and 
investigations at and near the TCOD. Consultants were retained by the 
Hopi Tribe, and monitoring wells were installed in the area of the TCOD 
to assess potential groundwater impacts in and around the TCOD. The 
studies and investigations led to the discovery of constituents above 
drinking water regulations in several monitoring wells immediately down 
gradient from the TCOD old cell. Among these constituents are total 
dissolved solids, arsenic, selenium, uranium, radium 226/228, nitrate, 
sulfates and chloride.
    Studies have identified saturated waste in the deeper trenched 
areas of the old cell of TCOD that are believed to be in direct contact 
with the groundwater. The plume of contaminants under and surrounding, 
the TCOD is currently adversely impacting the groundwater aquifer, 
which is an extremely valuable Hopi Tribe resource.
    Several years ago BIA signed an administrative order on consent 
with the EPA to conduct a remedial investigation and feasibility study 
(RI/FS) at the TCOD under the Superfund Program. The RUFS has been 
ongoing for the last several years. Even though the Hopi Tribe 
requested an opportunity to be a party to the administrative order, the 
United States declined that request but agreed to consult with the 
Tribe in the administrative process and before any decisions were made. 
While the Tribe remains engaged in the regulatory process with EPA and 
BIA in their actions and activities at the TCOD to complete the RI/FS, 
the Tribe has become increasingly concerned that the Tribe's 
requirements for the cleanup will not be treated as Applicable or 
Relevant and Appropriate Requirements (ARARs) in the remedy selection 
process. Hopi Tribe officials have sent letters and meetings have been 
held with EPA Region 9 on this issue. Nonetheless, to date EPA has not 
provided a commitment that the Tribe's requirements will be treated as 
ARARs. See attached correspondence.
    EPA has an opportunity to treat the Hopi Tribe as a co-sovereign 
with respect to the RI/FS process and remediation of the TCOD. The Hopi 
Tribe remains hopeful that EPA will properly treat the Hopi Tribe's 
remedial requirements as ARARs and fulfill its trust obligations to the 
Hopi Tribe by remediating the contamination caused by the United States 
actions at TCOD in accordance with Hopi Tribe requirements and in a 
manner acceptable to the Hopi Tribe.
Hopi Arsenic Mitigation Plan (HAMP)
    As trustee, the United States has exercised control over the Hopi 
Tribe's water supplies that were reserved to the Hopi Tribe pursuant to 
the Winters Doctrine when its reservation was established. In 
particular, the United States has designed, installed, constructed, and 
maintained drinking water systems on the Hopi Reservation, including 
those at the villages of Mishongnovi, Sipaulovi, Shungopavi, and the 
communities of Polacca and Kearns Canyon. The United States selected 
and hired the contractors to construct the wells, listed itself as the 
``owner'' of the wells in official paperwork, and designated itself as 
the record keeper for those wells.
    Effective January 23, 2006, EPA lowered the maximum contaminant 
level (MCL) for arsenic in drinking water to 10 micrograms per liter 
(idg/L). Id. paragraph 16 (citing 40 C.F.R. 141.6(j)); 40 C.F.R.  
141.62(b)(16). Certain of the water supply systems designed and 
installed by the United States have consistently contained arsenic at 
levels exceeding this level, and range from approximately twice the 
limit to almost five times the limit. Arsenic harms the central and 
peripheral nervous systems and the heart and blood vessels. It causes 
serious skin problems. Prolonged exposure causes bladder, lung and skin 
cancer, and may cause kidney and liver cancer. Water with arsenic 
levels over the MCL has been found by the United States to be unfit for 
human consumption, but, for people living in the affected villages on 
the Hopi Reservation, there is no other source of drinking water 
currently available.
    The Hopi Tribe requested that the United States address the 
elevated arsenic levels in the drinking water systems, including filing 
an action in the Court of Federal Claims. The Court recognized that the 
``central legal question in th[at] case'' was the precise scope of the 
federal government's duties as trustee with respect to Indian trusts.'' 
The Court also recognized that the United States' trust duties are 
determined by ``closely examining the statutes that impose them,'' and 
that ``the Federal Government's trust duties are ultimately determined 
by Congress.'' The Court of Federal Claims found that it did not have 
jurisdiction under the Indian Tucker Act to hear the Hopi Tribe's 
claim, and the Federal Circuit affirmed.
    The Hopi Tribe continues to work with the United States to further 
the Hopi Arsenic Mitigation Plan (HAMP). However, this process has been 
very slow, and, meanwhile, the drinking water systems at the Hopi Tribe 
continue to contained elevated arsenic concentrations. The Hopi Tribe 
is requesting that this committee review the handling of this matter by 
the United States. While EPA and the Indian Health Services have been 
instrumental in the initial funding and planning for the HAMP, the 
funding for the pipelines to connect the replacement water wells to the 
Hopi Villages has not yet been identified and made available.
    In closing, we hope these examples are helpful to the Committee in 
its evaluation of how the United States can better fulfill its Trust 
obligations to Indian Tribes in the environmental and public health 
areas. Specifically, with regard to current and future economic impacts 
of regulation of coal fired power plants in Indian Country, we 
recommend that Committee review the United States' commitment to off-
setting adverse economic impacts on Tribes, many of which cannot afford 
further adverse economic impacts. Thank you for the opportunity to 
provide testimony.
    Attachments
                                                       May 11, 2012
Hon. Ken Salazar,
Secretary,
Department of the Interior,
Washington, DC.

Hon. Lisa Jackson,
Administrator,
Environmental Protection Agency,
Washington, DC.

Dear Secretary Salazar and Administrator Jackson:

    We understand that a contaminated groundwater plume emanating from 
the Tuba City open dump on the Navajo and Hopi reservations poses an 
immediate threat to critical drinking-water supplies used by both 
tribes. We are also aware that the Department of the Interior (through 
the Bureau of Indian Affairs) and the Environmental Protection Agency 
are currently working on a Remedial Investigation/Feasibility Study 
(RI/FS) for the site. The plume's migration, however, may be outpacing 
your efforts. To stave off irreversible contamination of these 
drinking-water supplies, we encourage you, in coordination with the 
tribes, to immediately develop and implement a plume containment-and-
control strategy. Such a strategy would go a long way toward preventing 
further degradation of critical resources, while BIA and EPA finalize 
the RI/FS and identify a long-term solution.
    By way of background, it is our understanding that the BIA operated 
the Tuba City Open Dump from the 1950s until it stopped receiving waste 
in October 1997. We have also been informed that when in operation, it 
was an unlined, unpermitted, and unregulated facility. In all, the dump 
is approximately 30 acres in size, 28 acres of which are located on the 
Hopi Reservation, within view of the Hopi Village of Upper Moenkopi and 
the Navajo Nation's Tuba City Chapter.
    We have also been informed that monitoring wells located adjacent 
to the dump indicate that contaminated. groundwater is migrating from 
the site toward drinking-water wells; purportedly placing the plume 
within 3,000 feet of drinking-water wells serving the Village of Upper 
Moenkopi. Based on the information we received, these contaminants may 
include uranium, sulfates, and chloride, with uranium levels 
approximately seven times higher than the maximum contaminant levels 
allowed by the EPA. In light of the foregoing, we request that your 
respective agencies prioritize completion of the RI/FS, and that you 
urgently pursue a course of action aimed at containing and controlling 
the plume.
    Thank you for your time and immediate attention to this important 
issue. As always, we ask that this matter be handled in strict 
accordance with the existing agency rules, regulations, and ethical 
guidelines. Please do not hesitate to contact our offices with 
questions, and let us know if we can be of further assistance in this 
matter.
        Sincerely,
                                            Senator Jon Kyl
                                     Congressman Paul Gosar
                                        Senator John McCain
                                   Congressman Trent Franks
                                 ______
                                 
              United States Environmental Protection Agency
                                                      June 19, 2012
Hon. Paul Gosar,
U.S. House of Representatives,
Washington, DC.

Dear Congressman Gosar:

    Thank you for your letter of May 11, 2012 to EPA Administrator Lisa 
Jackson regarding the Tuba City Dump (Dump), located on the Navajo 
Nation and Hopi Tribe reservations. The Administrator has requested our 
Regional Office in San Francisco to respond. Your letter expresses 
concerns that groundwater contamination from the Dump is posing an 
imminent threat of contaminating the drinking water sources in 
Moenkopi, and suggests that EPA strongly consider taking immediate 
action to contain groundwater, before completion of the Superfund 
remedial investigation and feasibility study (RI/FS) being performed by 
the Bureau of Indian Affairs (BIA) with EPA oversight under an 
enforceable agreement.
    EPA shares your interest in ensuring that the limited drinking 
water available for the Navajo Nation and Hopi Tribe in this area 
remains safe and that the regulatory process to select appropriate 
cleanup actions takes place expeditiously. The remedial investigation 
currently being conducted is necessary to fully ascertain any potential 
risks from the Dump to the supply wells, and will be performed on a 
schedule that will ensure ongoing protection of the water supply. The 
feasibility study will evaluate specific detailed alternatives for 
cleanup of groundwater, the dump material, or both, to ensure that any 
remedy selected is the best alternative. EPA believes that existing 
studies and information do not support the need for a groundwater 
response action before this work is completed.
    The fieldwork to complete the remedial investigation is beginning 
this month. The critical information from these field efforts will be 
available within the next six months. The Record of Decision is 
anticipated by early 2014. EPA is continuing to monitor the water from 
the supply wells and surrounding monitoring well network, and will 
reconsider taking earlier action should new information indicate it is 
necessary to protect drinking water. We are committed to continuing to 
work closely with the Navajo Nation and Hopi Tribe throughout the RI/FS 
and remedy selection process.
        Sincerely,
                                          Jared Blumenfeld,
                                 ______
                                 
              United States Environmental Protection Agency
                                                      June 19, 2012
Hon. Trent Franks,
U.S. House of Representatives,
Washington, DC.

    Dear Congressman Franks:

    Thank you for your letter of May 11, 2012 to EPA Administrator Lisa 
Jackson regarding the Tuba City Dump (Dump), located on the Navajo 
Nation and Hopi Tribe reservations. The Administrator has requested our 
Regional Office in San Francisco to respond. Your letter expresses 
concerns that groundwater contamination from the Dump is posing an 
imminent threat of contaminating the drinking water sources in 
Moenkopi, and suggests that EPA strongly consider taking immediate 
action to contain groundwater, before completion of the Superfund 
remedial investigation and feasibility study (RI/FS) being performed by 
the Bureau of Indian Affairs (BIA) with EPA oversight under an 
enforceable agreement.
    EPA shares your interest in ensuring that the limited drinking 
water available for the Navajo Nation and Hopi Tribe in this area 
remains safe and that the regulatory process to select appropriate 
cleanup actions takes place expeditiously. The remedial investigation 
currently being conducted is necessary to fully ascertain any potential 
risks from the Dump to the supply wells, and will be performed on a 
schedule that will ensure ongoing protection of the water supply. The 
feasibility study will evaluate specific detailed alternatives for 
cleanup of groundwater, the dump material, or both, to ensure that any 
remedy selected is the best alternative. EPA believes that existing 
studies and information do not support the need for a groundwater 
response action before this work is completed.
    The fieldwork to complete the remedial investigation is beginning 
this month. The critical information from these field efforts will be 
available within the next six months. The Record of Decision is 
anticipated by early 2014. EPA is continuing to monitor the water from 
the supply wells and surrounding monitoring well network, and will 
reconsider taking earlier action should new information indicate it is 
necessary to protect drinking water. We are committed to continuing to 
work closely with the Navajo Nation and Hopi Tribe throughout the RI/FS 
and remedy selection process.
        Sincerely,
                                           Jared Blumenfeld
                                 ______
                                 
              United States Environmental Protection Agency
                                                      June 19, 2012
Hon. John McCain,
United States Senate,
Washington, DC.

Dear Senator McCain:

    Thank you for your letter of May 11, 2012 to EPA Administrator Lisa 
Jackson regarding the Tuba City Dump (Dump), located on the Navajo 
Nation and Hopi Tribe reservations. The Administrator has requested our 
Regional Office in San Francisco to respond. Your letter expresses 
concerns that groundwater contamination from the Dump is posing an 
imminent threat of contaminating the drinking water sources in 
Moenkopi, and suggests that EPA strongly consider taking immediate 
action to contain groundwater, before completion of the Superfund 
remedial investigation and feasibility study (RI/FS) being performed by 
the Bureau of Indian Affairs (BIA) with EPA oversight under an 
enforceable agreement.
    EPA shares your interest in ensuring that the limited drinking 
water available for the Navajo Nation and Hopi Tribe in this area 
remains safe and that the regulatory process to select appropriate 
cleanup actions takes place expeditiously. The remedial investigation 
currently being conducted is necessary to fully ascertain any potential 
risks from the Dump to the supply wells, and will be performed on a 
schedule that will ensure ongoing protection of the water supply. The 
feasibility study will evaluate' specific detailed alternatives for 
cleanup of groundwater, the dump material, or both, to ensure that any 
remedy selected is the best alternative. EPA believes that existing 
studies and information do not support the need for a groundwater 
response action before this work is completed.
    The fieldwork to complete the remedial investigation is beginning 
this month. The critical information from these field efforts will be 
available within the next six months. The Record of Decision is 
anticipated by early 2014. EPA is continuing to monitor the water from 
the supply wells and surrounding monitoring well network, and will 
reconsider taking earlier action should new information indicate it is 
necessary to protect drinking water. We are committed to continuing to 
work closely with the Navajo Nation and Hopi Tribe throughout the RI/FS 
and remedy selection process.
        Sincerely,
                                           Jared Blumenfeld
                                 ______
                                 
              United States Environmental Protection Agency
                                                      June 19, 2012

Hon. Jon Kyl,
United States Senate,
Washington, DC.

Dear Senator Kyl:

    Thank you for your letter of May 11, 2012 to EPA Administrator Lisa 
Jackson regarding the Tuba City Dump (Dump), located on the Navajo 
Nation and Hopi Tribe reservations. The Administrator has requested our 
Regional Office in San Francisco to respond. Your letter expresses 
concerns that groundwater contamination from the Dump is posing an 
imminent threat of contaminating the drinking water sources in 
Moenkopi, and suggests that EPA strongly consider taking immediate 
action to contain groundwater, before completion of the Superfund 
remedial investigation and feasibility study (RI/FS) being performed by 
the Bureau of Indian Affairs (BIA) with EPA oversight under an 
enforceable agreement.
    EPA shares your interest in ensuring that the limited drinking 
water available for the Navajo Nation and Hopi Tribe in this area 
remains safe and that the regulatory process to select appropriate 
cleanup actions takes place expeditiously. The remedial investigation 
currently being conducted is necessary to fully ascertain any potential 
risks from the Dump to the supply wells, and will be performed on a 
schedule that will ensure ongoing protection of the water supply. The 
feasibility study will evaluate specific detailed alternatives for 
cleanup of groundwater, the dump material, or both, to ensure that any 
remedy selected is the best alternative. EPA believes that existing 
studies and information do not support the need for a groundwater 
response action before this work is completed.
    The fieldwork to complete the remedial investigation is beginning 
this month. The critical information from these field efforts will be 
available within the next six months. The Record of Decision is 
anticipated by early 2014. EPA is continuing to monitor the water from 
the supply wells and surrounding monitoring well network, and will 
reconsider taking earlier action should new information indicate it is 
necessary to protect drinking water. We are committed to continuing to 
work closely with the Navajo Nation and Hopi Tribe throughout the RI/FS 
and remedy selection process.
        Sincerely,
                                          Jared Blumenfeld.

    The Chairman. Thank you so very much, Mr. Chairman for your 
compelling testimony. Thank you, sir.
    Next I'd like to turn to the Honorable LoRenzo Bates, who 
is the speaker of the Navajo Nation council.
    Welcome.

STATEMENT OF HON. LORENZO BATES, SPEAKER, NAVAJO NATION COUNCIL

    Mr. Bates. Thank you, Chairman Barrasso, Senator McCain.
    My name is LoRenzo Bates, and I'm an elected member of the 
23rd Navajo Nation council representing six Navajo communities, 
including Nenahnezad, Newcomb, San Juan, Tiis Tsoh Sikaad, Tse 
Daa Kaan, and Upper Fruitland.
    I would first like to begin by thanking you for the 
opportunity to submit testimony to the Committee on a matter of 
great significance to the Navajo Nation on and behalf of the 
communities and the farmers that I represent.
    I would also like, with your permission, Chairman, to ask 
that the folks that drove hours on their own time to be 
recognized from my communities. If you could stand.
    The Chairman. Please do.
    Welcome. Welcome to the hearing. Thank you for bringing 
them with you.
    Mr. Bates. And, also, my chairman for health education 
committee, Navajo Nation council.
    The Chairman. Chairman.
    Mr. Bates. These individuals, as well as myself, represent 
Navajo people and the families that continue to be impacted by 
the spill that occurred on August 5, 2015.
    The communities of Nenahnezad, San Juan, Upper Fruitland, 
and Tse Daa Kaan all lie directly along the path of the San 
Juan River. The other communities that I serve also draw water 
indirectly or directly from the river for human and livestock 
and agricultural use.
    In the communities of San Juan, Nenahnezad, Tse Daa Kaan, 
Gadi i ahi, Shiprock, and Upper Fruitland, it is estimated that 
there are over 1,600 farmers, and tens of thousands of acres of 
farmland that use water from the San Juan River.
    These numbers only reflect four impacted communities. The 
secondary impacts of these economic losses are only just 
beginning.
    The Navajo Nation, as a whole, has an unemployment rate 
that very often hovers around above 50 percent. We have a per 
capita income of around $7,000 annually.
    With those statistics in mind, I come before you today on 
behalf of the communities for the following four reasons: 
first, to urge the U.S. Environment Protection Agency to 
fulfill its obligation to compensate the farmers, livestock 
owners, and many others who are impacted by the spill in a 
timely manner and to the full extent of the damages occurred.
    We appreciate the fact that the U.S. EPA has begun 
reimbursing the Navajo Nation's governmental agencies; however, 
nearly nine months have passed since the spill occurred, and 
not one single individual farmer, livestock owner or others 
affected by the spill have been compensated for their losses.
    I understand that there is a process that there must be in 
order to issue financial compensation to the individuals; 
however, our people need to be informed of the timeline 
associated with that process, and be compensated as quickly and 
efficiently as possible.
    Second, to demand that the U.S. EPA provides assurances and 
tangible evidence to the Navajo people and communities that 
their livestock and agricultural products will be safe for sale 
and consumption.
    There remains great uncertainty and concern over the 
viability of sales of crops and livestock in the coming months.
    While Navajo farmers are now preparing their fields for 
planting season, there remains uncertainty over whether or not 
their fields will produce quantity and quality of crops they 
are accustomed to prior to the spill.
    Thirdly, to request closer and more constant collaboration 
between the U.S. EPA and the Navajo Nation EPA in communicating 
with one another, sharing data, and conveying that data and 
information to the Navajo public on a timely and consistent 
basis.
    Numerous meetings have been held, and information has been 
shared publicly; however, that information is not always 
consistent.
    And I urge all of the entities involved in monitoring the 
Animus River and the San Juan River to coordinate and speak 
with one consistent voice when informing the Navajo people.
    Lastly, on April 14th, members of the 23rd Navajo Nation 
Council passed a resolution urging the President of the United 
States and his designees to hold the U.S. EPA accountable for 
their negligence resulting in a toxic spill from the Gold King 
Mine into the Animus River and causing catastrophic 
consequences for the Navajo Nation.
    The resolution is attached to this testimony. I myself as a 
farmer and livestock owner in the community of Upper Fruitland 
have seen the impacts firsthand.
    Since the spill, I have met many individuals from the 
impacted area, and continue to struggle with financial losses 
and look to the Federal government to provide answers and 
assistance. The assistance can and should come in the form of 
financial compensation through the claims process.
    While I have made reference to financial compensation 
several times, I also want the Committee and the U.S. EPA to 
fully understand that the spill that occurred on August 5, 
2015, had a price tag. And no monetary figure can be placed on 
the cultural and emotional impact that the spill continues to 
have on our Navajo people. Water is life, and indeed that is 
true for our people.
    In closing, we look forward to working closely with the 
U.S. EPA and the Federal government to address the needs of the 
Navajo communities and the environment today, and in the long-
term the problems that have defined initial response, cleanup, 
and compensation do not need to taint the future response and 
cooperation between the Navajo Nation and the U.S. EPA and the 
Federal Government.
    The Navajo Nation looks forward to working closely with 
this Committee and Congress to ensure that future needs and 
communications are handled in a timely and proper manner and to 
ensure that the Navajo people are compensated.
    Thank you.
    [The prepared statement of Mr. Bates follows:]

   Prepared Statement of Hon. Lorenzo Bates, Speaker, Navajo Nation 
                                Council
    Ya'at'eeh Chairman Barrasso, Vice-Chairman Tester, and Members of 
the U.S. Senate Committee on Indian Affairs. My name is LoRenzo Bates. 
I am an elected member of the 23rd Navajo Nation Council, representing 
six Navajo communities including Nenahnezad, Newcomb, San Juan, Tiis 
Tsoh Sikaad, Tse'Daa'Kaan, and Upper Fruitland. I would like to begin 
by thanking you for the opportunity to submit testimony to the 
committee on a matter of great significance to the Navajo Nation on 
behalf of the communities and the farmers that I represent.
    I also want to acknowledge and thank the members of the impacted 
communities who are seated in the audience today. At this time, I ask 
them to please stand and be recognized by the committee. They drove 
many hours, at their own expense, to be here to support the testimony 
provided on behalf of the Navajo people, Navajo communities, and the 
Great Navajo Nation.
    They represent the thousands of Navajo people and Navajo families 
that continue to be impacted by the spill that occurred on August 5, 
2015. The communities of Nenahnezad, San Juan, Upper Fruitland, and 
Tse'Daa'Kaan all lie directly along the path of the San Juan River. The 
other communities that I serve all draw water directly or indirectly 
from the river for human, livestock, and agricultural use.
    In the four communities of Tse'Daa'Kaan, Gadi'i'ahi, Shiprock, and 
Upper Fruitland it is estimated that there are over 1,600 farmers and 
tens of thousands of acres of farmland that use water from the San Juan 
River--these numbers only reflect four impacted communities. The 
secondary impacts of these economic losses are only just beginning. The 
Navajo Nation as a whole has an unemployment rate that very often 
hovers at 50 percent. We have a per capita income around $7,000.
    With those statistics in mind, I come before you today on behalf of 
these communities for the following four reasons:

        1)  Firstly, to urge the U.S. Environmental Protection Agency 
        to fulfill its obligation to compensate the farmers, livestock 
        owners, and many others who are impacted by the spill in a 
        timely manner and to the fullest extent of damages incurred. We 
        appreciate the fact that the U.S. EPA has begun reimbursing the 
        Navajo Nation's governmental agencies. However, nearly nine 
        months have passed since the spill occurred and not one single 
        individual farmer, livestock owner, or others affected by the 
        spill have been compensated for their losses. I understand that 
        there is a process that must be followed in order to issue 
        financial compensation to individuals. However, our people need 
        to be informed of the timeline associated with that process and 
        be compensated as quickly and efficiently as possible.

        2)  Secondly, to demand that the U.S. EPA provides assurances 
        and tangible evidence to the Navajo people and communities that 
        their livestock and agricultural products will be safe for sale 
        and consumption. There remains great uncertainty and concern 
        over the viability of sales of crops and livestock in the 
        coming months. While Navajo farmers are now preparing their 
        fields for planting season there remains uncertainty over 
        whether or not their fields will produce the quantity and 
        quality of crops that they were accustomed to prior to the 
        spill. As you recall, restrictions were placed on the use of 
        irrigation water from the San Juan River following the spill, 
        which left thousands of acres of farmland without water for 
        extended periods of time. The extent of damage to the soil and 
        nutrients remains unknown to this day.

        3)  Thirdly, to request closer and more consistent 
        collaboration between the U.S. EPA and the Navajo Nation EPA in 
        communicating with one another, sharing data, and conveying 
        that data and information to the Navajo public on a timely and 
        consistent basis. Numerous meetings have been held and 
        information has been shared publicly. However, that information 
        is not always consistent. I urge all of the entities involved 
        in monitoring the Animas River and the San Juan River to 
        coordinate and to speak with one consistent voice when 
        informing the Navajo people.

        4)  Lastly, on April 14, 2016, members of the Navajo Nation 
        Council passed a resolution urging the President of the United 
        States and his designees to hold the U.S. EPA accountable for 
        their negligence resulting in a toxic spill from the Gold King 
        Mine into the Animas River and causing catastrophic 
        consequences for the Navajo Nation. The resolution is attached 
        to this testimony. I strongly urge Congress to advocate for an 
        Executive Order that requires all federal agencies to provide 
        timely and effective communication to tribes in events such as 
        the Gold King Mine spill.

    I myself am a farmer and livestock owner in the community of Upper 
Fruitland, and have seen the impacts firsthand. Since the spill I have 
met with many individuals from the affected communities and many 
continue to struggle with financial losses and look to the Federal 
Government to provide answers and assistance. That assistance can and 
should come in the form of financial compensation through the claims 
process. However, there are also other means to assisting farmers in 
the affected regions through other federal agencies such as the U.S. 
Department of Agriculture, U.S. Bureau of Reclamation, and others.
    While I have made reference to financial compensation several 
times, I also want the committee and the U.S. EPA to fully understand 
that the spill that occurred on August 5, 2015, had a tremendous impact 
on Navajo people in a spiritual, traditional, and cultural context. 
There is no price tag and no monetary figure that can be placed on the 
cultural and emotional impact that the spill continues to have on our 
Navajo people. Often times, we hear the phrase ``Water is Life'' and 
indeed that is true for our people. Water gives life to us, and all 
that surrounds us.
    Spiritually and culturally, Navajo beliefs are deeply rooted in the 
land, air, and water that lie between the Four Sacred Mountains that 
form the aboriginal boundary of our land. These connections are 
reinforced spiritually in the ceremonies that sustain our people and 
our livelihood. Our ceremonies use traditional seeds and crops that are 
grown and gathered on Navajo land. The spill has contaminated or 
destroyed many of the essential elements of our religious practice, and 
desecrated a river that we have treated with reverence since time 
immemorial.
    In closing, we look forward to working closely with the U.S. EPA 
and the federal government to address the needs of the Navajo 
communities and the environment today, and in the long term. The 
problems that have defined the initial response, clean up and 
compensation do not need to taint the future response and cooperation 
between the Navajo Nation, the U.S. EPA, and the Federal Government. 
The Navajo Nation looks forward to working closely with this committee 
and the Congress to ensure future needs and communications are handled 
in a timely and proper manner and to ensure that our Navajo people are 
compensated.
    Attachment
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
   

    The Chairman. Thank you very much for being with us today, 
Speaker Bates. I'm grateful for your testimony.
    I would like to next turn to Dr. Clark Lantz, who is a 
professor and associate head of the Cellular and Molecular 
Medicine at the University of Arizona.
    Welcome, Dr. Lantz.

       STATEMENT OF R, CLARK LANTZ, Ph.D. PROFESSOR AND 
ASSOCIATE HEAD, CELLULAR AND MOLECULAR MEDICINE, UNIVERSITY OF 
                            ARIZONA

    Mr. Lantz. Thank you, Chairman Barrasso and--and Senator 
McCain. I welcome the opportunity to testify before the 
Committee today.
    So I'm also the associate director of the University's 
Superfund research program and deputy director of the Southwest 
Environmental Health Science Center, two of the programs that 
the university funded by the National Institute of 
Environmental Health Sciences that focus on environmental 
issues and their effects on native populations.
    The University of Arizona is uniquely situated to play a 
major role as an unbiased partner with American Indian 
communities to determine the contribution of chemical and other 
environmental exposures, particularly those related to metal 
mining, to health inequities, and to support efforts to address 
these threats.
    Other National Institutes of Health funded programs at the 
university include the partnership for Native American Cancer 
Prevention, and the Center for Indigenous Environmental Health 
Research.
    In addition, the Lowell Institute for Mineral Resources and 
the Center for Environmentally Sustainable Mining aim to engage 
communities and be responsive to stakeholders to address 
environmental issues related to mining in arid and semi-arid 
environments.
    The existence of these programs and their established trust 
within Native communities were essential to the University of 
Arizona response to the Gold King Mine spill.
    Within a week after the spill, we had developed an 
extensive information sheet that was posted on the U of A's 
Superfund website, sent to our extension agents for 
distribution to farmers, and sent to Navajo research managers 
for use in their presentations about the spill.
    In addition, the University of Arizona's Superfund 
personnel held community teach-in regarding spill consequences 
in Shiprock, Arizona, and three community listening sessions in 
Shiprock, Aneth, and Upper Fruitland, Arizona.
    Topics covered included the extent of the contamination and 
potential for impact to the environment. In particular, water 
quality and the significance of the spill to Navajo livelihoods 
and cultural beliefs.
    Finally, U of A Superfund personnel hosted four members of 
the Navajo nation to participate in a panel discussion at the 
University to discuss Navajo perspectives on the Gold King Mine 
spill.
    University of Arizona researchers felt it was also 
important to be involved as an independent source in evaluation 
of the outcomes of the spill.
    To this end, researchers submitted and were awarded a grant 
from the National Institute of Environmental Health Sciences. 
This application was strengthened by the involvement and 
support of the Navajo Nation. This included letters of support 
from President Begaye and Vice President Nez, the division 
directors, including Navajo EPA Director Dr. Ben, and approval 
by the Navajo Nation Human Subjects Review Board. The 
application also had a supporting resolution from the Dine 
Medicine Men's association.
    This research is a partnership between the Navajo Nation 
and the University. Samples are collected by the community, are 
guided to the points by farmers for their areas of--areas of 
concern.
    University of Arizona investigators have been quick to 
respond to questions by the community, and have taken careful 
steps to seek the Community's input and approvals in research 
design. All results will be reported first to the community and 
belong to the community.
    Now, I think one of the most important metals to monitor 
for toxicity--based on the total estimated levels of metals 
released from the spill and the relative toxicity of the 
metals, in our opinion, lead and arsenic are the most 
problematic in terms of health risk.
    Lead is known to cause neurological defects. Long-term lead 
exposure of adults can result in decreased performance in some 
tests that measure functions of the nervous system.
    Children are particularly sensitive to lead exposures, 
resulting in decreased mental abilities and learning 
difficulties.
    Exposures to lead is most dangerous for young and unborn 
children. Unborn children can be exposed to lead through their 
mothers. Harmful effects include premature birth, smaller 
babies, decreased mental ability in the infant and learning 
difficulties and reduced growth in young children.
    Arsenic has been associated with a wide range of chronic 
diseases. Arsenic has been classified as a carcinogen. And 
long-term exposure to arsenic is associated with cancers of the 
skin, bladder, and lungs.
    Other adverse health effects include chronic lung disease, 
developmental effects, neurotoxicity, diabetes, and 
cardiovascular disease. Children, again, appear to be 
particularly sensitive, especially to high doses.
    Arsenic can be accumulated in some plants and foods, 
including rice, lettuce, radishes, broccoli, brussel sprouts, 
kale and cabbage.
    Again, I want to thank the Committee for giving me the 
opportunity to demonstrate how the University has provided, and 
will continue to provide, unbiased support for native 
communities concerned with their environmental issues.
    Thank you.
    [The prepared statement of Mr. Lantz follows:]

  Prepared Statement of R, Clark Lantz, Ph.D. Professor and Associate 
      Head, Cellular and Molecular Medicine, University of Arizona
    Chairman Barrasso, Vice Chairman Tester and members of the 
Committee. My name is Dr. Clark Lantz and I want to thank you for the 
opportunity to testify. I would like to acknowledge that I was assisted 
with preparing this testimony by Drs. Karletta Chief and Raina Maier. I 
am the Associate Director of the University of Arizona Superfund 
Research Program and Deputy Director of the Southwest Environmental 
Health Sciences Center, two of the programs at the University that 
focus on environmental issues and their effects on native populations.
    The University of Arizona is uniquely situated to play a major role 
as an unbiased partner with American Indian communities to determine 
the contribution of chemical and other environmental exposures, 
particularly those related to metal mining, to health inequities and to 
support efforts to address these threats. In Part I of this document we 
identify and highlight the goals and accomplishments of key University 
of Arizona programs related to native communities and mining. Most of 
these programs are funded through the National Institutes of Health 
(NIH) by the National Institute of Environmental Health Sciences 
(NIEHS) and the National Cancer Institute (NCI). In Part II we describe 
how the existence of these programs and their established trust within 
native communities were essential to the University of Arizona response 
to the Gold King Mine spill. Part III of the document presents 
information on the toxicity of metals associated with the Gold King 
Mine spill.
Part I. Key Programs Related to Native Communities and Mining
A. UA Southwest Environmental Health Science Center (SWEHSC) An NIEHS 
        Core Center of Excellence
    The geographic location of the SWEHSC, with its rich Native 
American cultural heritage, provides unique opportunities for basic 
environmental health sciences research to impact the health of these 
populations. The focus of the Center is on supporting research related 
to unique exposures seen in arid and semiarid environments and how they 
affect indigenous populations. Within the Center the Community Outreach 
and Education Core (COEC) provides strong links between the research 
conducted within the Center and communities that maybe affected by 
exposures.
    Under the theme of activities with tribal entities, the COEC 
continues to work with the Gila River Indian Community and the Inter 
Tribal Council of Arizona to develop new activities. In 2015 the SWEHSC 
COEC built additional collaborations with American Indian communities 
in close proximity to Tucson, the Tohono O'odham Nation, related to 
arsenic in the water, and the Pascua Yaqui Tribe, regarding high levels 
asthma among their children.
    Major Recent Accomplishments include:

  <bullet> Tribal Forum associated with the Annual Meeting of the P30 
        Core Centers Meeting and the outcomes associated with that 
        meeting

  <bullet> Water Summit--Arsenic in the Water of the Tohono O'odham 
        Nation

  <bullet> Publication of the Indigenous Stewards Environmental 
        Literary Magazine and the outcomes related to its publication, 
        a component of the ``American Indian Stories of Health and the 
        Environment'' administrative supplement funding.

        2015 Tribal Forum
    The COEC Director continues to participate in the bi-annual Inter 
Tribal Council of Arizona (ITCA), Inc. Environmental Managers meetings 
and those of the Water Resources working group, the Air Quality working 
group and the Solid Waste working group led to the relationships that 
brought over 100 tribal representatives to the Forum. The 2015 Tribal 
forum was associated with the NIEHS Annual Centers Meeting and was very 
successful. The forum was called Tribal Stories of Health and the 
Environment: A forum to share how environmental exposures affect the 
health of tribal people, and was hosted by the ITCA, the Ak-Chin Indian 
Community and the Tohono O'odham Nation. Information, can be found at 
https://swehsc.pharmacy.arizona.edu/outreach/tribal-stories-health-
environment-forum.
    This event grew from the COEC idea of a small meeting with the 
tribal environmental managers to one with tribal environmental 
professionals from all the programs. Most of the over 125 people who 
attended were tribal people, people who work for tribes and attendees 
from NIEHS and from other P30 Core Centers who work with tribes. An 
NIEHS article summarizes the forum, ``Tribal forum forges new 
connections'' and can be found at http://www.niehs.nih.gov/news/
newsletter/2015/5/spotlight-tribal/.
        Arsenic Water Summit
    As a result of the forum, Selso Villegas, PhD, the Director of the 
Water Resources Department of the Tohono O'odham Nation requested help 
with a meeting with community members concerning low dose chronic 
exposure to arsenic. The event was held in November, with attendance by 
Tohono O'odham (TO) community members, two members of the Tribal 
Council and by a number of TO Community College students. The outcome 
of the meeting is a request to present to subcommittees of the Council 
and to the Council itself. In addition, the COEC director discussed 
pilot project funds available from the SWEHSC for an epidemiological 
study.
        Indigenous Stewards Magazine
    In 2013 the COEC received an administrative supplement in 
collaboration with the COEC of the University of Washington. This 
project has provided new avenues of partnership with the Ha:San High 
School, the Tohono O'odham Community College and with Native American 
student associations at the University of Arizona. The output of the 
supplement is the inaugural issue of a literary magazine Indigenous 
Stewards, found at http://swehsc.pharmacy.arizona.edu/content/
indigenous-stewards.
B. Center for Indigenous Environmental Health Research (CIEHR) An NIEHS 
        and USEPA Center of Excellence on Environmental Health 
        Disparities
    The P50 Center for Indigenous Environmental Health Research (CIEHR) 
newly established and funded in late 2015, was initiated to partner 
with American Indian and Alaska Native (AI/AN) communities to build 
capacity to determine the contribution of chemical and other 
environmental exposures to health inequities and support efforts to 
address these threats. AI/AN communities suffer from increased 
mortality attributable to cancer (stomach, gallbladder, liver and 
kidney), respiratory disease, diabetes, and liver disease, among other 
conditions. Chemically contaminated traditional foods, water, air, and 
household environments, as well as social determinants of health, 
contribute to these health disparities and stand out as modifiable 
factors for AI/AN communities. Effective and sustainable environmental 
health disparities research and mitigation require a community-based 
participatory research (CBPR) approach, engaging the strengths of AI/AN 
communities and providing data and context to inform policy decisions. 
Nascent research on resilience in AI/AN and other peoples identifies 
traditional community structure and social relationships, cultural 
identity and practices, and experience with past adversity as 
protective, offering innovative directions for AI/AN health research 
and intervention.
C. The Partnership for Native American Cancer Prevention (NACP) An NCI 
        Partnership to Advance Cancer Health Equity
    The Partnership for Native American Cancer Prevention (NACP) is a 
collaborative Minority Institution/Cancer Center Partnership (MI/CCP) 
between the University of Arizona Cancer Center, Northern Arizona 
University and the NIH National Cancer Institute. The mission is to 
alleviate the unequal burden of cancer among Native Americans of the 
Southwest through research, training and community outreach programs in 
collaboration with the communities they serve.
    The Program is designed to facilitate the entry of Native Americans 
into biomedical research and healthcare professions while engaging 
communities in research and training relevant to their needs. Research 
projects include laboratory, field-based and community-based 
participatory research. All programs involving communities originate in 
those communities and are developed and implemented in partnership with 
NACP students and faculty.
    The goals of the NACP are:

        1)  Continue to increase the competitive stance of cancer 
        research and training at Northern Arizona University by adding 
        new cancer researchers and by continuing strong faculty 
        development programs for all junior faculty.

        2)  Develop programs that facilitate the successful transition 
        of Native American students into the universities and that 
        enhance the retention and graduation of Native American 
        undergraduates in biomedical sciences.

        3)  Develop sustainable community education programs and 
        research for cancer prevention that meet the unique needs of 
        the Hopi Tribe and the Navajo and Tohono O'odham Nations.

D. University of Arizona Superfund Research Program (UASRP) An NIEHS 
        multi-investigator interdisciplinary research program
    The University of Arizona Superfund Research Program (UA SRP) 
addresses the current knowledge gap in our understanding of mine waste 
systems in relation to human and environmental health, a current and 
growing problem. The research goals of the UA SRP are two-fold, first 
to develop exposure assessment tools that can be used to evaluate the 
risk for communities that neighbor mine waste or smelter sites. A 
second goal is to develop and evaluate the effectiveness of new cleanup 
technologies for mining waste. Along with these goals, the UA SRP has a 
mission to work to mitigate the human impacts of exposure to mining 
waste through effective communication of its research and by serving as 
a State and national resource for human and environmental health issues 
associated with mining.
    Within the UASRP the Community Engagement Core (CEC) applies 
research outcomes from the UA SRP to empower underrepresented 
populations to address health and environmental challenges related to 
our mining legacy. This is done through a combination of community-
engaged research and training and capacity building focused on Arizona 
Tribal Nations and Hispanic communities.
    The purpose of the CEC is to deliver science-based information to 
engage affected community stakeholders so they can become active 
players in understanding and making informed decisions on health issues 
related to mining. In this way, they become active players in 
understanding and dealing with the environmental health issues they 
face. Active participation allows citizens to help create and drive the 
research process, problem solving, solution development, and political 
dialogue. The exchange between the UA SRP and communities is multi-
directional so as to influence both the research agenda and the 
engagement experiences that are implemented. For instance, community 
members not only interact with CEC personnel regarding community 
engaged-research, but also, opportunities are made available for them 
to discuss current UA SRP research as well as how this research can 
respond to local concerns.
        Mining Modules
    The UA SRP has partnered with Arizona tribal colleges to design and 
pilot educational modules on mining processes and on the sociocultural 
and environmental impacts of mining to supplement existing science, 
technology, engineering, and mathematics (STEM) curricula, with the 
goal of supporting the Native American STEM pipeline to four-year 
institutions. The first module, Copper Mining, is available on-line: 
http://www.superfund.pharmacy.arizona.edu/learning-modules/tribal-
modules Five additional modules will be made available as they are 
completed.
        Community Informational Pamphlets
    The UA SRP has developed a series of eleven tri-fold information 
sheets to date which are designed to provide a basic introduction to 
environmental issues for community members neighboring contaminated 
sites as well the general public. The materials are available online or 
in English and Spanish. Examples include: What are Mine Tailings?, What 
is Arsenic?, Lead and Our Health, and What is Hazardous Waste?
E. Lowell Institute for Mineral Resources (IMR) A State and industry 
        supported Institute
    The IMR (www.imr.arizona.edu) is the largest interdisciplinary 
center for mineral resources research in the US and one of the largest 
in the world. The purpose of the IMR is to create the ``new face of 
mining'' by fusing intellectual disciplines, engaging communities, 
being responsive to stakeholders, conducting use-inspired research, 
being entrepreneurial, having permeable boundaries, and being engaged 
globally. The IMR is unique in the world in the success of this 
transdisciplinary approach.
    The IMR bridges basic and applied research across all areas of 
science, technology, health, social science, law, policy, business, and 
leadership and works with leaders to adopt new ideas, policies, and 
technologies. Key thematic challenges include water, energy, healthy 
and safe communities, improving our knowledge of the global mineral 
resource inventory, improving environmental stewardship, obtaining 
social license to operate, informing law and policy, educating the next 
generation, and engaging our communities.
    Personnel from the IMR have been active in briefing the staffs for 
all Arizona federal representatives and Senators, state legislators, 
and local city and county council and supervisors on issues related to 
mining.
F. The Center for Environmentally Sustainable Mining (CESM) A State and 
        industry supported Center
    The mission of CESM is to develop educational, specialized 
professional training, and research initiatives that address 
environmental issues related to mining activities in arid and semi-arid 
urban environments. Examples include development of novel technologies 
to: minimize water use and suppress dust generation in mining 
operations; allow green engineering for environmentally responsible new 
mine development; create sustainable mine tailings caps; prevent and 
treat acid rock drainage; allow long-term assessment of environmental 
impacts; assess short- and long-term health risks from contaminated 
water and air in urban environments near mining operations.
    A major accomplishment of the CESM is the formation of an Industry-
Academic Cooperative for the reclamation of mine wastes. The purpose of 
the Cooperative is to bring mining companies together with academia to 
develop improved reclamation technology for mining waste. All members 
of the Cooperative agree to share results.
Part II: University of Arizona Response to Gold King Mine Spill
        Communicating information
    The Gold King Mine spill contaminated waterways running through 
Navajo Nation communities. The spill occurred on August 5, 2015 from 
the Gold King Mine in Silverton, CO. Acid mine drainage (AMD) from the 
mine traveled to Cement creek, a tributary of the Animas River, 
eventually adding three million gallons of AMD into the waterways of 
the Colorado River Basin. Tribal community members along the impacted 
rivers and streams began voicing their concerns about the safety of the 
contaminated water for personal use as well as for livestock, wildlife, 
and crops. The Friday after the spill, it was suggested that based on 
all the questions being received from Navajo Nation Speaker of the 
Navajo Council Lorenzo Bates and from Navajo and Yuma farmers, that an 
unbiased information sheet should be developed as quickly as possible. 
Because of the foundation and trust established by the UA Programs 
listed above, UA SRP personnel were contacted to help with this 
project. They produced and published an on-line Gold King Mine spill 
fact sheet following analysis of data released by the US Environmental 
Protection Agency (US EPA) in the week following the spill. http://
www.superfund.pharmacy.arizona.edu/sites/default/files/u43/
gold_king_mine_spill.pdf.
    The fact sheet was posted on the UA SRP website and was distributed 
by email and through Jeannie Benally (UA extension agent) who 
distributed hard copies at the farmers meetings. In addition, Perry 
Charley (Research Manager at Dine' College) used it in his 
presentations about the spill. The document continues to be updated and 
the current version is posted on the UA SRP website at the url provided 
above. The fact sheet has also been condensed into a two page brochure 
for ease of distribution. (The 2 page information sheets are attached).
    In addition to the fact sheet, over the next couple of months, UA 
SRP personnel were engaged in diverse translation and outreach efforts. 
These included media interviews (see media outlet list below), student 
educational opportunities, a community ``teach-in'' regarding spill 
consequences held in Shiprock, AZ, and three community ``listening'' 
sessions held in Shiprock, Aneth, and Upper Fruitland, AZ. Topics 
covered included the extent of the contamination and potential for 
impact to the environment, in particular water quality; and the 
significance of the spill to Navajo livelihoods and cultural beliefs.
    Media interview outlets included:

  <bullet> Arizona Week, a newsmagazine produced by Arizona Public 
        Media

  <bullet> Native America Calling, a live call-in program which can be 
        heard on over public, community, and tribal radio stations and 
        the Internet

  <bullet> Arizona Daily Star

  <bullet> Arizona Farm Bureau

    Finally on March 29, 2016, UA SRP personnel hosted four members of 
the Navajo Nation to participate in a panel to discuss ``Navajo 
Perspectives on the Gold King Mine Spill.'' Panel members included: 
Chili Yazzie (Shiprock Chapter President), Perry Charley (Dine College 
Scientist), Jani Ingram (NAU Chemistry Professor), and Mae-Gilene Begay 
(Navajo Community Health Representatives Director). The purpose of this 
visit was to promote meaningful interaction between the Navajo 
community and the UA community.
        Independent Assessment of Spill Outcomes
    University of Arizona researchers felt it was important to not only 
provide information related to the spill but to also be involved as an 
independent source in evaluation of the outcomes of the spill. To this 
end researchers submitted a grant to NIEHS entitled: ``ToLitso, The 
Water Is Yellow: Investigating Short Term Exposure And Risk Perception 
Of Navajo Communities To The Gold King Mine Toxic Spill''. The grant 
was funded for two years, beginning March 1, 2016, through a rapid 
funding mechanism that can be used for time sensitive research needs 
such as the Gold King spill. Realizing the importance of beginning the 
studies as quickly as possible, UA SRP and SWEHSC both provided 
preliminary funds so that the project could actually begin in late 
2015. The application was strengthened by the involvement and support 
of the Navajo Nation. This included a letter of support from President 
Begay and VP Nez, the Division directors including Navajo EPA Dr. Benn, 
and approval by the Navajo Nation Human Subjects Review Board as of Jan 
2016. The application also had a supporting resolution from the Dine' 
Medicine Men's Association.
    The research is a partnership between UA and Navajo Nation. Samples 
are collected by the community who are guided to the points by farmers 
for their areas of concern. UA investigators have been quick to respond 
to the questions by the community and have taken careful steps to seek 
the community's input in approvals and research design. All results 
will be reported first and belong to the community. Navajo Nation 
President Russell Begaye and Vice President Jonathan Nez delivered 
samples to the University of Arizona. Vice President Nez spent a day 
touring University labs and discussing issues of the spill with 
investigators.
        ''To Litso, The Water Is Yellow'' grant summary
    On August 5, 2015, 3 million gallons of acid mine drainage was 
accidently released from the Gold King Mine spill, eventually reaching 
the San Juan River--the lifeblood of the Navajo Nation. Many Native 
American communities have subsistence livelihoods and strong cultural 
practices and spiritual beliefs that are deeply connected to the 
natural environment. As a result, environmental contamination from 
catastrophic mine spills severely impacts indigenous people to the core 
of their spiritual and physical livelihoods and there is potential for 
unique exposure pathways and greater health risks. Further complicating 
the situation is the lack of empirical short and long-term exposure 
data following mine spills, necessary for scientists to address these 
concerns. Building on established partnerships with the Navajo Nation, 
this project aims to measure the short-term exposure to lead and 
arsenic and evaluate the risk perceptions of Navajo communities 
dependent on the San Juan River in order to understand the potential 
long-term health risks from the Gold King Mine spill and develop 
mitigation strategies. Exposure and health effects of lead and arsenic 
are widely studied and clear guidelines for human biomonitoring levels 
are established such that individuals with high risks can be identified 
and treated before adverse health effects occur. The first aim is to 
determine levels of exposures in three Navajo Chapters downstream of 
spill within 9 months of the spill and prior to the growing season. The 
second aim is to assess temporal and spatial changes in sediment, 
agricultural soil, river and well water in the three Navajo Chapters 
within 12 months of the spill. The third aim is to determine the 
association between Navajo community members' perception of health 
risks and measured health risks from the Gold King Mine spill within 
the 9-month period after the spill. This application is time-sensitive 
because it is essential to obtain baseline shortterm exposure 
measurements prior to spring runoff which is likely to re-mobilize 
river sediment and prior to the start of the Navajo growing season. 
Additionally, risk perception is most elevated, dynamic, and diverse 
shortly after an incident and recall bias should be minimized. The 
unpredictable timing of a mine spill of this magnitude increases the 
importance of a timely response for the collection of samples to 
evaluate potential harm to human health from environmental exposures. 
The results of this investigation will be used in the future to develop 
a community-based intervention, designed to (a) prevent potentially 
harmful exposures based on actual measured risk, and/or (b) communicate 
the actual long-term risks from the Gold King mine spill, effectively. 
While this specific incident may have been one of the largest acid mine 
spills in recent history, the Department of Interior has estimated more 
than 500,000 abandoned mines throughout the United States, and the 
potential for ongoing acid mine leaks or large-scale spills to impact 
many communities and eco-systems is high. Empirical data collected from 
this study could also be used to improve risk assessment and 
communication in the unfortunate event of future mine spill disasters 
affecting other communities.
Part III: Toxicity of Metals Associated With the Gold King Spill
    Based on the total estimated levels of metals released from the 
spill (see Understanding the Gold King Mine Spill pamphlet) and the 
relative toxicity of the metals, in our opinion, the following metals 
seem to be the most problematic in terms of health risk. These include 
in order of importance lead, arsenic, mercury, cadmium, manganese, 
copper and zinc.
        Overview of metal toxicity
    Lead is known to cause neurological deficits. Long-term lead 
exposure of adults can result in decreased performance in some tests 
that measure functions of the nervous system. It may also cause 
weakness in fingers, wrists, or ankles. Children are particularly 
sensitive to lead exposures resulting in decreased mental abilities, 
and learning difficulties. Current EPA standards are lead in drinking 
water is 0.015 milligrams per liter.
    Arsenic has been associated with a wide range of chronic diseases. 
Long-term exposure to arsenic may cause cancers of the skin, bladder 
and lungs. The International Agency for Research on Cancer (IARC) has 
classified arsenic and arsenic compounds as carcinogenic to humans, and 
has also stated that arsenic in drinkingwater is carcinogenic to 
humans. Other adverse health effects that may be associated with long-
term ingestion of inorganic arsenic include developmental effects, 
neurotoxicity, diabetes and cardiovascular disease. Children appear to 
be particularly sensitive, especially at high doses. Exposures during 
in utero and postnatal development lead to increased mortality, 
decreased lung function and increased incidence of pulmonary infections 
in adults. Some of these changes are evident as early as 6 years of age 
following chronic in utero and postnatal exposures. Arsenic can be 
accumulated in some plants and foods including rice, lettuce, radishes, 
broccoli, Brussels sprouts, kale, and cabbage. The current EPA standard 
for arsenic in municipal drinking water systems is 0.010 milligrams per 
liter.
    The nervous system is very sensitive to all forms of mercury. 
Methylmercury and metallic mercury vapors are more harmful than other 
forms, because more mercury in these forms reaches the brain. Exposure 
to high levels of metallic, inorganic, or organic mercury can 
permanently damage the brain, kidneys, and developing fetus. Very young 
children are more sensitive to mercury than adults. Mercury in the 
mother's body passes to the fetus and may accumulate there. 
Methylmercury builds up in the tissues of fish. Larger and older fish 
tend to have the highest levels of mercury. The EPA has set a limit of 
0.002 milligrams per liter in drinking water. The Food and Drug 
Administration (FDA) has set a maximum permissible level of 1 milligram 
per kilogram of seafood.
    Long-term exposure to lower levels of cadmium in air, food, or 
water leads to a buildup of cadmium in the kidneys and possible kidney 
disease. Other long-term effects are lung damage and fragile bones. The 
health effects in children are expected to be similar. Animal studies 
indicate that younger animals may be more sensitive. Fish, plants, and 
animals take up cadmium from the environment. You can be exposed by 
eating foods containing cadmium; low levels are found in all foods 
(highest levels are found in shellfish, liver, and kidney meats) or by 
drinking contaminated water. No long term adverse effects are expected 
with a lifetime exposure to 0.005 milligrams per liter.
    Manganese is also known to cause neurological deficits. While most 
data on manganese is from inhaled occupational exposures, limited 
evidence suggests that high manganese intake from drinking water may be 
associated with neurological symptoms similar to those of Parkinson's 
disease. In addition, limited evidence also indicates children exposed 
to high levels of manganese had significantly lower scores on tests of 
intelligence. A life time exposure to 0.3 milligrams per liter is not 
expected to cause any adverse effects. The current EPA standard for 
manganese in drinking water is 0.05 milligrams per liter. This is a 
secondary standard dealing mostly with taste, clarity and other 
nontoxic properties.
    Copper and zinc are both essential nutrients but high levels may 
also cause toxicity. Very high doses of copper can cause damage to your 
liver and kidneys, and can even cause death. We do not know if these 
effects would occur at the same dose level in children and adults. 
Studies in animals suggest that young children may have more severe 
effects than adults, but we don't know if this would also be true in 
humans. For zinc, harmful effects generally begin at levels 10-15 times 
higher than the amount needed for good health. Large doses taken 
chronically by mouth can cause anemia and decrease the levels of good 
cholesterol. It is not known whether children are more susceptible. EPA 
recommended levels of copper and zinc in water should not exceed 1 
milligram per liter and 5 milligrams per liter for copper and zinc, 
respectively. These also are secondary standards. Please note that 
these recommended limits are at least 100 times higher than those for 
lead, arsenic mercury and cadmium, demonstrating that they are 
relatively less toxic. However, they are mentioned here because of the 
high levels of zinc and copper released during the spill.
        Summary of toxicity of each metal
    Additional information about the toxicity of these metals is given 
in the more detailed sections below and can also be found on the Agency 
for Toxic Substances and Disease Registry (ATSDR) ToxFAQs websites.
Lead
    How can lead affect my health?

    The effects of lead are the same whether it enters the body through 
breathing or swallowing. Lead can affect almost every organ and system 
in your body. The main target for lead toxicity is the nervous system, 
both in adults and children. Long-term exposure of adults can result in 
decreased performance in some tests that measure functions of the 
nervous system. It may also cause weakness in fingers, wrists, or 
ankles. Lead exposure also causes small increases in blood pressure, 
particularly in middle-aged and older people and can cause anemia. 
Exposure to high lead levels can severely damage the brain and kidneys 
in adults or children and ultimately cause death. In pregnant women, 
high-levels of exposure to lead may cause miscarriage. High-level 
exposure in men can damage the organs responsible for sperm production. 
There is no conclusive proof that lead causes cancer.

    How can lead affect children?

    Small children can be exposed by eating lead-based paint chips, 
chewing on objects painted with lead-based paint or swallowing house 
dust or soil that contains lead.
    Children are more vulnerable to lead poisoning than adults. A child 
who swallows large amounts of lead may develop blood anemia, severe 
stomachache, muscle weakness, and brain damage. If a child swallows 
smaller amounts of lead, much less severe effects on blood and brain 
function may occur. Even at much lower levels of exposure, lead can 
affect a child's mental and physical growth.
    Exposure to lead is more dangerous for young and unborn children. 
Unborn children can be exposed to lead through their mothers. Harmful 
effects include premature births, smaller babies, decreased mental 
ability in the infant, learning difficulties, and reduced growth in 
young children. These effects are more common if the mother or baby was 
exposed to high levels of lead. Some of these effects may persist 
beyond childhood.

    What happens to lead when it enters the environment?

    Once lead falls onto soil, it usually sticks to soil particles. 
Movement of lead from soil into groundwater will depend on the type of 
lead compound and the characteristics of the soil.

    Has the Federal Government made recommendations to protect human 
health?

    The Centers for Disease Control and Prevention (CDC) recommends 
that states test children at ages 1 and 2 years. Children should be 
tested at ages 3-6 years if they have never been tested for lead, if 
they receive services from public assistance programs for the poor such 
as Medicaid or the Supplemental Food Program for Women, Infants, and 
Children, if they live in a building or frequently visit a house built 
before 1950; if they visit a home (house or apartment) built before 
1978 that has been recently remodeled; and/or if they have a brother, 
sister, or playmate who has had lead poisoning. CDC has updated its 
recommendations on children's blood lead levels. Experts now use an 
upper reference level value of 97.5 percent of the population 
distribution for children's blood lead. In 2012-2015, the value to 
identify children with blood lead levels that are much higher than most 
children have is 5 micrograms per deciliter. EPA limits lead in 
drinking water to 0.015 milligrams per liter.
Arsenic
    How can arsenic affect my health?

    The first symptoms of long-term exposure to high levels of 
inorganic arsenic (e.g. through drinking-water and food) are usually 
observed in the skin, and include pigmentation changes, skin lesions 
and hard patches on the palms and soles of the feet (hyperkeratosis). 
These occur after a minimum exposure of approximately five years and 
may be a precursor to skin cancer.
    In addition to skin cancer, long-term exposure to arsenic may also 
cause cancers of the bladder and lungs. The International Agency for 
Research on Cancer (IARC) has classified arsenic and arsenic compounds 
as carcinogenic to humans, both through inhalation and through 
ingestion. Other adverse health effects that may be associated with 
long-term ingestion of inorganic arsenic include developmental effects, 
neurotoxicity, diabetes and cardiovascular disease.

    How can arsenic affect children?

    Children appear to be particularly sensitive, especially at high 
doses. Exposures during in utero and postnatal development led to 
increased mortality, decreased lung function and increased incidence of 
pulmonary infections in adults. Some of these changes are evident as 
early as 6 years of age following chronic in utero and postnatal 
exposures.

    What happens to arsenic when it enters the environment?

    Arsenic occurs naturally in soil and minerals and may enter the 
air, water, and land from wind-blown dust and may get into water from 
runoff and leaching. Arsenic can be accumulated in some plants 
including rice, lettuce, radishes, broccoli, Brussels sprouts, kale, 
and cabbage.

    Has the Federal Government made recommendations to protect human 
health?

    U.S. EPA standard for arsenic in municipal water systems is 0.010 
milligrams per liter.

Mercury
    How can mercury affect my health?

    The nervous system is very sensitive to all forms of mercury. 
Methylmercury and metallic mercury vapors are more harmful than other 
forms, because more mercury in these forms reaches the brain. Exposure 
to high levels of metallic, inorganic, or organic mercury can 
permanently damage the brain, kidneys, and developing fetus. Effects on 
brain functioning may result in irritability, shyness, tremors, changes 
in vision or hearing, and memory problems. Methylmercury and mercuric 
chloride are possible human carcinogen.

    How does mercury affect children?

    Very young children are more sensitive to mercury than adults. 
Mercury in the mother's body passes to the fetus and may accumulate 
there. It can also pass to a nursing infant through breast milk. 
Mercury's harmful effects that may be passed from the mother to the 
fetus include brain damage, mental retardation, incoordination, 
blindness, seizures, and inability to speak. Children poisoned by 
mercury may develop problems of their nervous and digestive systems, 
and kidney damage.

    What happens to mercury when it enters the environment?

    Inorganic mercury (metallic mercury and inorganic mercury 
compounds) enters the air from mining ore deposits, burning coal and 
waste, and from manufacturing plants. It enters the water or soil from 
natural deposits, disposal of wastes, and volcanic activity. 
Methylmercury may be formed in water and soil by small organisms called 
bacteria. Methylmercury builds up in the tissues of fish. Larger and 
older fish tend to have the highest levels of mercury.

    Has the federal government made recommendations to protect human 
health?

    The EPA has set a limit of 0.002 milligrams per liter of mercury in 
drinking water. The Food and Drug Administration (FDA) has set a 
maximum permissible level of 1 milligram per kilogram in seafood.
Cadmium
    How can cadmium affect my health?

    Long-term exposure to lower levels of cadmium in air, food, or 
water leads to a buildup of cadmium in the kidneys and possible kidney 
disease. Other long-term effects are lung damage and fragile bones. 
Eating food or drinking water with very high levels severely irritates 
the stomach, leading to vomiting and diarrhea. Cadmium is classified as 
a human carcinogen.

    How can cadmium affect children?

    The health effects in children are expected to be similar to the 
effects seen in adults (kidney, lung, and bone damage depending on the 
route of exposure). A few studies in animals indicate that younger 
animals absorb more cadmium than adults. Animal studies also indicate 
that the young are more susceptible than adults to a loss of bone and 
decreased bone strength from exposure to cadmium.

    What happens to cadmium when it enters the environment?

    Cadmium enters soil, water, and air from mining, industry, and 
burning coal and household wastes. Some forms of cadmium dissolve in 
water. Fish, plants, and animals take up cadmium from the environment.

    Has the Federal Government made recommendations to protect human 
health?

    The EPA has determined that lifetime exposure to 0.005 milligrams 
per liter is not expected to cause any adverse effects. The FDA has 
determined that the cadmium concentration in bottled drinking water 
should not exceed 0.005 milligrams per liter.
Manganese
    How can manganese affect my health?

    Manganese is an essential nutrient, and eating a small amount of it 
each day is important to stay healthy. Limited evidence suggests that 
high manganese intakes from drinking water may be associated with 
neurological symptoms similar to those of Parkinson's disease. A study 
of older adults in Greece found a high prevalence of neurological 
symptoms in those exposed to water manganese levels of 1.8 to 2.3 
milligrams per liter, while a study in Germany found no evidence of 
increased neurological symptoms in people drinking water with manganese 
levels ranging from 0.3 to 2.2 milligrams per liter compared to those 
drinking water containing less than 0.05 milligrams per liter. 
Manganese in drinking water may be more bioavailable than manganese in 
food. However, none of the studies measured dietary manganese, so total 
manganese intake in these cases is unknown. Manganese is not classified 
as a human carcinogen.

    How can manganese affect children?

    Recent studies have shown that children exposed to high levels of 
manganese through drinking water experience cognitive and behavioral 
deficits. For instance, a crosssectional study in 142 10-year old 
children, who were exposed to a mean manganese water concentration of 
0.8 milligrams per liter, found that children exposed to higher 
manganese levels had significantly lower scores on three tests of 
intellectual function. Another study associated high levels of 
manganese in tap water with hyperactive behavioral disorders in 
children. These and other recent reports have raised concern over the 
neurobehavioral effects of manganese exposure in children.
    In the U.S., the EPA recommends 0.05 milligrams per liter as the 
maximum allowable manganese concentration in drinking water. This is a 
secondary standard based on color and taste. Life time exposures to 0.3 
milligrams per liter is not expected to cause any adverse effects.
Copper
    How can copper affect my health?

    Everyone must absorb small amounts of copper every day because 
copper is essential for good health. High levels of copper can be 
harmful. Breathing high levels of copper can cause irritation of your 
nose and throat. Ingesting high levels of copper can cause nausea, 
vomiting, and diarrhea. Very-high doses of copper can cause damage to 
your liver and kidneys, and can even cause death. Copper is not 
classified as a human carcinogen.

    How can copper affect children?

    Exposure to high levels of copper will result in the same type of 
effects in children and adults. We do not know if these effects would 
occur at the same dose level in children and adults. Studies in animals 
suggest that the young children may have more severe effects than 
adults, but we don't know if this would also be true in humans. There 
is a very small percentage of infants and children who are unusually 
sensitive to copper. We do not know if copper can cause birth defects 
or other developmental effects in humans. Studies in animals suggest 
that high levels of copper may cause a decrease in fetal growth.

    What happens to copper when it enters the environment?

    Copper is released into the environment by mining, farming, and 
manufacturing operations and through waste water releases into rivers 
and lakes. Copper is also released from natural sources, like 
volcanoes, windblown dusts, decaying vegetation, and forest fires. 
Copper released into the environment usually attaches to particles made 
of organic matter, clay, soil, or sand. Copper does not break down in 
the environment. Copper compounds can break down and release free 
copper into the air, water, and foods.

    Has the Federal Government made recommendations to protect human 
health?

    The EPA requires that levels of copper in drinking water be less 
than 1 milligram of copper per one liter of drinking water based on 
taste and staining.
Zinc
    How can zinc affect my health?

    Zinc is an essential element in our diet. Too little zinc can cause 
problems, but too much zinc is also harmful. Harmful effects generally 
begin at levels 10-15 times higher than the amount needed for good 
health. Large doses taken by mouth even for a short time can cause 
stomach cramps, nausea, and vomiting. Taken longer, it can cause anemia 
and decrease the levels of your good cholesterol. We do not know if 
high levels of zinc affect reproduction in humans. Rats that were fed 
large amounts of zinc became infertile. Putting low levels of zinc 
acetate and zinc chloride on the skin of rabbits, guinea pigs, and mice 
caused skin irritation. Skin irritation will probably occur in people. 
Zinc is not classified as a carcinogen.

    How can zinc affect children?

    Zinc is essential for proper growth and development of young 
children. It is likely that children exposed to very high levels of 
zinc will have similar effects as adults. We do not know whether 
children are more susceptible to the effects of excessive intake of 
zinc than the adults.
    We do not know if excess zinc can cause developmental effects in 
humans. Animal studies have found decreased weight in the offspring of 
animals that ingested very high amounts of zinc.

    What happens to zinc when it enters the environment?

    Some is released into the environment by natural processes, but 
most comes from human activities like mining, steel production, coal 
burning, and burning of waste. Depending on the type of soil, some zinc 
compounds can move into the groundwater and into lakes, streams, and 
rivers. Most of the zinc in soil stays bound to soil particles and does 
not dissolve in water. It builds up in fish and other organisms, but it 
does not build up in plants.

    Has the Federal Government Made Recommendations to Protect Human 
health?

    The EPA recommends that drinking water should contain no more than 
5 milligrams per liter of water because of taste.

            Gold King Mine Spill two page information sheet
Gold King Mine Spill Community Sheet
In General:

  <bullet> Short-term the Gold King Mine spill was quickly diluted and 
        metals settled in the river sediment.

  <bullet> Long-term health and environmental impacts of the Gold King 
        Mine spill are not well understood.

  <bullet> Currently different agencies and universities are trying to 
        understand what are the overall impacts.

The Bottom Line Answer

    Why was the water yellow after the spill?

    When rocks made up of minerals and metals found in deep mine 
tunnels come into contact with water and air this combination creates 
acid mine drainage. This rock-acid mixture causes the metals in the 
rocks to seep out into the water. The Gold King Mine spill turned a 
yellow orange color because there was iron present. When acid mine 
drainage from the spill came into contact with fresh river water it 
made the mixture less acidic and caused the iron to settle out.

    How will the spill affect people's health?

    Not enough information has been gathered to determine what the 
health impacts are or will be for people living near waterways affected 
by the Gold King Mine spill. Tribal, federal, state, and local agencies 
as well as universities are currently studying the potential short- and 
long-term effects by collecting water, soil, and animal samples. At 
this point, drinking water sources have been determined to be safe to 
drink by federal and state authorities.

    How are crops or gardens affected by the spill?

    Soon after the Gold King Mine spill, irrigation intakes at the 
Animas and San Juan Rivers were turned off. Because this happened 
quickly, agencies suggested that crops were not impacted. Many local 
farmers lost their crops due to a lack of water during the hottest time 
of the year. The possible longterm impacts of the spill on local crops 
are not known. It is generally recommended that farmers or gardeners 
growing crops call the extension office for specific advice. At this 
time, irrigation intakes have been flushed and reopened for use.

    Can the spill affect livestock?

    In August 2015, the Colorado Department of Agriculture and the Utah 
Department of Agriculture and Food lifted warnings on the use of water 
from the San Juan River for livestock. However, there have not been 
enough studies conducted to say with certainty that livestock was not 
impacted soon after the spill. Cattle ranchers in areas where the Gold 
King Mine spill occurred should double check with veterinarians or 
extension personnel regarding potential impacts.

    This is a community summary of the information complied for the 
``Understanding the Gold King Mine Spill'' document available at: 
http://superfund.pharmacy.arizona.edu/sites/default/files/u43/
gold_king_mine_spill.pdf

What happened at the Gold King Mine on August 5, 2015?
    On August 5, 2015, when the U.S. Environmental Protection Agency 
was investigating the old, abandoned Gold King Mine in Silverton, 
Colorado, digging machines loosened a soil plug that caused mine water 
under pressure to gush out and eventually travel to Cement Creek, a 
tributary of the Animas River. It is estimated that three million 
gallons or nine football fields with one foot deep of mine water 
spilled out. This mine water contained acid, salts, and toxic metals 
such as lead and arsenic. The Gold King Mine spill took place in the 
Colorado River Basin.

    Who are involved in studying the impacts of the Gold King Mine 
spill?

    There are various tribal, federal, state, and local agencies as 
well as universities studying the impacts of the Gold King Mine spill. 
The following is a list of the major groups involved:

        Tribal Agencies

    Navajo Nation, Navajo, Environmental Protection Agency, Southern 
Ute Indian Tribe Water Quality Program

        Federal Agencies

    U.S. Environmental Protection Agency, U.S. Geological Survey, U.S. 
Agency for Toxic Substances and Disease Registry, Bureau of Indian 
Affairs

        State Agencies

    AZ Department of Environmental Quality, NM Environmental 
Department, CO Fish and Wildlife Conservation Office, CO Department of 
Public Health and the Environment

        Universities

    University of Arizona, Northern Arizona University, Rice 
University, University of New Mexico, University of Colorado Boulder, 
New Mexico State University, New Mexico Institute of Mining and 
Technology

What was done and is being done to control the Gold King Mine spill?
    Stopping or pumping the Gold King Mine spill was not possible 
because the Animas River is flows fast. The water in the river diluted 
the initial acid mine drainage as it flowed downstream. The U.S. 
Environmental Protection Agency and other federal, state, and tribal 
agencies worked to redirect additional acid mine drainage away from 
waterways. This acid mine drainage is being treated in a series of man-
made ponds that both decrease the acidity using lime and remove metals 
from the water. Since February 2016, the Bonita Peak Mining District 
(where the Gold King Mine is located) is being considered for the 
Superfund National Priority List that would apply more federal monies 
to monitor and treat contamination.

        I would like to talk to someone about the Gold King Mine spill 
        and.
        Drinking Water--Janick Artiola, Soil, Water and Environmental 
        Science, (520) 621-3516
        Human Health--Clark Lantz, Cellular Biology and Anatomy, (520) 
        626-6716
        Crop/Garden--M centsnica Ram!rez-Andreotta, Soil, Water and 
        Environmental Science, (520) 621-0091
        Community Organizing--Janene Yazzie, Sixth World Solutions, 
        (928) 245-1352
        Livestock--Gerald Moore, Navajo Nation Extension Agent, (928) 
        871-7686
        NIEHS Gold King Mine Exposure Project--Karletta Chief, Soil, 
        Water and Environmental Science (520) 222-9801

    As a community member, it is important to ask questions! 
Researchers involved in these studies should follow up with you and 
your community about the results and what they mean. Information is 
important for everyone impacted by environmental contamination. You and 
others can use results from these studies to make informed decisions.

    The Chairman. Thank you very much to each of you.
    Senator McCain. Mr. Chairman?
    The Chairman. Yes.
    Senator McCain. I would request that Congresswoman 
Kirkpatrick could join us here, if she would like, in order to 
ask questions. This whole area lies in her area of 
responsibility in Congress. And even though we in the Senate 
are terrible snobs, we'd be pleased to have her join us.
    Please come right here.
    The Chairman. You're welcome to join us up here.
    Senator McCain. Thank you.
    The Chairman. Dr. Lantz, as you know, among the many toxic 
compounds in the Gold King Mine wastewater is lead. We just 
mentioned that.
    According to the Centers for Disease Control, ``No safe 
blood lead level in children has been identified.'' Lead 
exposure, as you say, can affect nearly every system in the 
body.
    The CDC goes on to say that lead exposure in children 
causes damage to brain and nervous system, slowed growth and 
development, learning and behavior problems, hearing and speech 
problems.
    In your written testimony you said movement of lead from 
the soil--this is what I want to get into--movement of lead 
from the soil and the groundwater will depend on the type of 
lead compound, I think you said, and the characteristics of the 
soil.
    So can you go into a little more detail as to what steps 
the affected communities should take in order to protect their 
children from the lead exposure, and what assistance and 
information the EPA should be providing to the public?
    Mr. Lantz. Yes. So lead in the water systems is probably 
going to be the most problematic. And being exposed through 
that route may be the one that needs to be monitored.
    So certainly what needs to be done is to monitor the lead 
levels in drinking water or water that's being used for 
cooking, and making sure that those are at sufficiently low 
levels so as not to cause adverse health outcomes.
    I also think that it's important to make sure that the 
children have been tested for their own lead levels, so that we 
have an idea of what the exposure is and that we can correct 
any types of over-exposures that might occur if those levels 
are higher than should be.
    The action limit right now, I think, is 5 micrograms per 
deciliter for lead in children. But as you mentioned, the CDC 
says that there really is no safe level. That there are 
declines in intelligence tests, I believe, for even levels 
lower than that.
    So the best course of action is to monitor what the lead 
levels are and to remediate those so that people are not 
exposed to those lead compounds.
    The Chairman. Thank you, Dr. Lantz. For all our tribal 
witnesses, you know, I just want to ask you a question about a 
statement earlier this week, April 18th, a Kaiser news article 
came out where an administrator, Gina McCarthy, who administers 
the EPA said, ``Well, we are called the Environmental 
Protection Agency. Our major role is public health.'' She said, 
``That is what we do.''
    So I'd just like to ask the three of you, in your opinion, 
has the EPA adequately protected the public health of the 
Navajo Nation and the Hopi Tribe with regard to their response 
to the Animus River disaster?
    President Begaye.
    Mr. Begaye. Thank you for that question. And for us, the 
answer is no. The culture of distrust, like I said, still 
exists. The amount of contaminates that was mentioned just a 
while ago, 330 million gallons a year, we did not get that 
information ever, at any time during our lifetime.
    And only after this spill are we being told that every 
single day, 5.5 million gallons a day spills into the Animus 
River. We did not know that. If we knew that, and EPA had those 
statistics, they did not share that with us.
    How can any Federal agency that has that kind of 
information and knowledge, and you have that amount of spill 
taking place, not do a thing?
    And they have not been out on the river cleaning up that 
river. The 330 million gallons a year, they, themselves, now 
just testified that's how much goes into the river. That is not 
protecting the health of the Navajo Nation people. And we live 
with that day in and day out. And they need to do something 
about it.
    And I appreciate the comment was made by Senator McCain 
about the $80 million that's been spent since the spill took 
place up in Michigan. Because it's Navajo, only $157,000 has 
been spent. That is not protecting the health of my people.
    Thank you.
    The Chairman. Thank you.
    Chairman Honanie, would you like to comment to that 
statement by the EPA administrator that the major role is 
public health and how it comports with what you've seen?
    Mr. Honanie. Thank you for that question.
    I'd just like to respond in this way: If that has been 
their mission all along, then where have they been all these 
years?
    When I'm talking about the arsenic in our water, when I'm 
talking about the open cut mines, and even the pollution coming 
from the Navajo generating plant in which the EPA has decided 
otherwise, by shutting it down to lessen the pollution, you 
know, the environmental health and the public health is still 
at stake.
    We have not received any remedies openly and progressively 
from EPA, especially on the arsenic water. That is the most 
pressing matter to us on Hopi. It has been for years.
    And all of a sudden the Flint, Michigan episode comes 
along, and where is all the focus on? Where is all the 
attention going? And what is EPA doing here?
    But, you know, if they are there, they've obviously dropped 
the bucket on us and left us here. And we're, again, left alone 
to deal with it.
    If that's the mission of the EPA, I'd like to remind them, 
and I'd like to call on you to remind them, that they have a 
huge, huge responsibility and obligation to not only the Hopi 
people, but as President Begaye has explained and on this 
situation, that has to be resolved. We cannot afford to wait 
any longer to see and wait and hope that something will be 
done.
    So it's very, very unnerving to hear them say that that's 
what it is, but yet, we have not been at the tables to 
constructively reach a resolve on these issues.
    Thank you.
    The Chairman. Okay. Speaker Bates, anything that you would 
like to add as well?
    Mr. Bates. Thank you, Chairman.
    As you indicated, the intent of the U.S. EPA is to protect. 
They not only have a responsibility to the United States, but 
that includes the Navajo Nation. So speaking in that context, 
as a delegate representing farmers along the river, there has 
been the inconsistency of whether or not the water is safe to 
drink, use as irrigation for the crops.
    And because of that inconsistency of not knowing whether or 
not, is one of the reasons we are here is, as indicated, this 
is not a short-term. This is a long-term situation that 
indirectly or directly impacted, have concerns going forth.
    So in answer to your question, Chairman, it is the 
inconsistency, the lack of cooperation in terms of informing 
the people as to where we are at from one day to the next.
    Mr. Chairman.
    The Chairman. Thank you, Speaker Bates. I was going to ask 
Assistant Administrator Stanislaus, there are about 200,000 
people who drink from the river system that the EPA has 
poisoned last summer.
    Among them are Indian farmers, ranchers, families with 
children whose health and livelihoods are under threat. These 
are the people of the Navajo Nation and the Hopi Tribe whose 
leadership has testified here today.
    Can you tell them right now, for the record, why does it 
take a subpoena from this Committee--something we haven't had 
to do since Jack Abramoff, the scandal years and years ago--to 
compel the EPA to testify in person about an environmental 
disaster it imposed on the communities? All we were told is we 
could get a written testimony until we had a bipartisan 
subpoena. Can you explain that to us?
    Mr. Stanislaus. Well, I agreed to testify before the 
subpoena was issued.
    The Chairman. We have the letters from the EPA with saying, 
``Well, we'll send written testimony.'' And then we threatened 
the subpoena.
    So let's just say a private company had created an economic 
disaster and a poisoning of a river like what we've seen here, 
and then refused to come forward to answer questions to the 
EPA.
    If a private company refused to answer the EPA, would that 
be acceptable?
    Mr. Stanislaus. No. And to be clear, you know, both I and 
Administrator McCarthy have testified--we take our 
responsibility to the Congress very seriously. I think I 
personally have testified five times regarding this incident. 
Administrator McCarthy, probably the equivalent. We take our 
responsibility seriously.
    You know, I had to testify yesterday in D.C., so there was 
some logistical issues that I needed to work through. So it was 
kind of a logistical issue. And once those were resolved, I 
agreed to participate in this.
    The Chairman. You know, the Michigan Attorney General 
recently handed down two felony indictments as a result of the 
Flint, Michigan water disaster.
    Indian Tribes had their own water disaster caused by the 
EPA. Do you expect a criminal referral to be made?
    Mr. Stanislaus. Well, no. We are moving forward within my 
area and EPA's responsibility, learning from the incident. 
Again, this was an accidental event resulting from the historic 
abandoned mine situation. This particular mine situation was 
originally lead by the state of Colorado because of the 
significant loading of metals to the Animus River and the 
watershed for decades.
    The State of Colorado asked our assistance to be there. And 
an accident did occur. And we immediately addressed that 
accident so that the rivers and waterways could be restored.
    We shared that data with all stakeholders. And clearly 
there are things we can do better. You know, as I noted 
earlier, we could have notified earlier and more affectively. 
And we've implemented that system. Doing additional preparation 
before these kind of circumstances.
    These are tough situations. You know, I have a personal 
responsibility to respond to communities who have situations 
like this.
    There are abandoned mines around the country. There are 
abandoned hazardous waste situations that communities look to 
us to address. And I take that responsibility seriously.
    We want to address those hazards in a cooperative way with 
the local communities so we can, in fact, do the cleanup and 
enable prosperity and health for those communities.
    The Chairman. Thank you.
    Senator McCain?
    Senator McCain. Well, thank all the witnesses, and thank 
you Mr. Stanislaus. I'm interested to hear you say that you 
were ready to testify, because I'd like to make it part of the 
record, Mr. Chairman, of the refusal of the EPA. And it 
required an actual subpoena--and as the Chairman said, for the 
first time in many years to get you here.
    I'm gratified to hear of your willingness, but your agency 
would not provide you, and did not until we issued a subpoena.
    So President Begaye, I hear and was told that there's been 
suicides because of the devastation of this spill. Is that 
correct or not?
    Mr. Begaye. Well, thank you, Senator McCain.
    We had several suicides immediately after the spill took 
place. And two of them were along the river. And any time 
there's a suicide that takes place, multiple factors, I'm sure, 
are involved in any taking of a life, where an individual goes 
to that extent.
    When an environment is created where there is distrust, 
where there is anger, where there's damage being done, where a 
large amount of people are suffering--where the land is 
damaged, water is damaged, an environment is created, I 
believe, where people that are having issues with their own 
lives that tend to spike. And as a result, like I said, almost 
immediately along the river, two of people took their lives. 
There were others, other attempts have been made off the bridge 
where it crosses the river, but fortunately, those lives were 
saved and those lives are still with us today.
    Thank you.
    Senator McCain. Thank you.
    For the record, at the last hearing, Administrator McCarthy 
testified that the EPA notified the the Navajo Nation promptly 
about the spill.
    Just for the record, could you remind the Committee how 
long it took the Navajo Nation to be contacted by EPA following 
the spill.
    Mr. Begaye. It took two days.
    Senator McCain. Thank you.
    After the disaster, Mr. Stanislaus, the EPA pledged to 
conduct a, quote, internal review, as well as fund an 
independent technical review performed by the Interior 
Department into the cause of the spill.
    Did the EPA internal review identify any criminal 
negligence related to the spill?
    Mr. Stanislaus. No.
    Senator McCain. Did the EPA review lead to any criminal 
referrals to the Department of Justice?
    Mr. Stanislaus. No.
    Senator McCain. And it's my understanding that was not in 
the scope of the EPA internal investigation as well. Is that 
true?
    Mr. Stanislaus. That's correct.
    Senator McCain. Is there any ongoing investigations into 
criminal negligence?
    Mr. Stanislaus. There is a broad investigation being 
implemented by the Office of Inspector General.
    Senator McCain. E-mails from the House Committee on 
Oversight and Government Reform and the House Committee on 
Natural Resources show that you were included in e-mails that 
helped define the, quote, scope of work for the Department of 
Interior Independent Technical Review.
    I understand that this is a standard procedure. But in an 
e-mail dated August 16, 2015, between you and other EPA 
employees in developing the scope of work, it was suggested by 
EPA staff that the U.S. Army Corps of Engineers would have 
superior skills for conducting the investigation.
    Let me read from the EPA's own recommendation. ``Though the 
Department of the Interior's recommended as the lead, the U.S. 
Army Corps of Engineers has the program and project management 
experience, technical experience, and the technology to lead 
such a study.''
    Do you agree with the statement the Army Corps. has 
superior experience than the DOI to lead the study?
    Mr. Stanislaus. I would assume those statements are 
correct.
    Senator McCain. Then who at EPA decided that Interior 
should lead the study instead of the Corps. of engineers?
    Mr. Stanislaus. So there was an inquiry as to what entity 
should lead the investigation. And we looked at the Department 
of the Interior--it would be the Bureau of Lands within the 
Department of the Interior--for the extensive mining 
experience. The Army Corps. of Engineers has, particularly, 
engineering experience.
    We felt that ultimately the structure was Department of 
Interior to lead with the Army Corps serving as peer reviewers 
for the findings.
    Senator McCain. Well, what I'm leading up to is that the 
decision was made that the Department of Interior would take 
the lead. And, yet, there was one individual who was included 
in this group.
    And according to the Daily Caller, dated March 18, 2016, 
entitled EPA Advisor Wrote 'Independent' Review of Gold King 
Mine Spill, ``An independent investigation was formed to 
determine how the Environmental Protection Agency caused the 
Gold King Mine spill, but a Daily Caller News Foundation 
investigation found the Federal department conducting the 
examination may not have been so independent.
    ``The Department of the Interior released its Technical 
Evaluation report in October but the report omitted crucial 
details, possibly due to conflict of interest.
    ``The EPA selected DOI to conduct an independent review of 
the blowout, even though it was involved,'' itself was 
involved, ``with numerous aspects of the Gold King Mine project 
both before and after the spill.
    ``The Department of the Interior branches involved include 
the Bureau of Reclamation, which `received thousands of dollars 
from EPA' for projects related to Gold King Mine.''
    ``The Department of the Interior was involved with numerous 
aspects of the word--work going on, ...and the mine engineering 
expert tasked with reviewing the department's reports had 
serious misgivings about the integrity of the investigation.''
    Finally, I will summarize, Dr. Olsen, who was the Army 
Corps peer reviewer who was involved in the investigation, 
wrote to the Department of Interior, ``I have serious 
reservations with the chronology of events internal to the EPA 
from the day of the phone call to U.S. Bureau of Reclamation, 
and up to the day of the mine failure. The actual cause of 
failure is some combination of issues related to EPA internal 
communications, administrative authorities and/or a break in 
the decision path. I believe that the investigation reports 
should describe what happened internal within the EPA that 
resulted in the path forward and eventually caused the failure. 
The report discusses field observations by EPA and why they 
continued digging, but does not describe why a change in EPA 
field coordinators caused the urgency to start digging the plug 
rather than wait for the Bureau of Reclamation technical output 
as described by the EPA leader.''
    In other words, there's real question about the 
investigation and its result by the individual who was the Army 
Corps peer reviewer. But I will say, the review did contain at 
least one finding, ``EPA failed to conduct a standard water 
pressure test at the time.''
    You agree with that?
    Mr. Stanislaus. Yes.
    Senator McCain. And who was responsible for not conducting 
a standard water pressure test at the mine? Which, to our 
friends and, for the record, the water pressure test, if it had 
been conducted, would have shown that there was in danger of 
the catastrophe that just took place, so...
    Mr. Stanislaus. Yeah. So both in our internal 
investigation, as well as Department of Interior's 
investigation, made that conclusion. It also goes on to stay 
that if that pressure test would have been administered, they 
would have identified a pressurized situation.
    However, they go further on to say that given the geology 
and geography and the seed conditions, that procedure which was 
done on the mine below the Gold King Mine to identify the 
pressurized conditions, they--they could not conclude whether 
that was possible, nor can they conclude if it was possible, if 
it was able to prevent the actual incident from happening in 
the first place.
    Senator McCain. Well, I don't want to go into too many more 
of the details, but it is of interest that the department--the 
Corps of Engineer [sic], who was the only one outside of your 
bureaucracy in this investigation, had serious concerns.
    Chairman Honanie, maybe you can tell us about the impact of 
the EPA's regulations on your reservation and its economy.
    Mr. Honanie. With respect to the economy, the work and all 
the steps that have been taken to address the Navajo generating 
station, the final rule that came out was that eventually one 
of the three units would be eventually shut down beginning 
2019. And the long range effect would be that in 2044, I 
believe, is when the entire generating station would be shut 
down.
    So when that does happen, obviously, a huge impact on Hopi 
will be very devastating, because economically the royalties 
stemming from the mining, the coal mine, is what provides the 
revenue to the Hopi Tribe.
    And based on these revenues is what we utilize to provide 
the basic services to our people in the communities and to 
tribal government programs.
    So as a result, what options and other plans that might be 
available or could be discussed and be used as a resolve to 
help mitigate and answer some of these questions that we have 
with regard to the loss of revenue, that has yet to be taken. 
That has never been fully discussed between the Tribe and the 
Federal government agencies involved.
    And that's what we're waiting for. We desperately need to 
start talking about that, because for a picture of long-term 
picture of closing the entire generating plant in the future is 
going to be very devastating to our people.
    Senator McCain. Well, it just seems to many of us--and I'm 
sure the members of your Tribe--that actions taken by a Federal 
bureaucracy, not necessarily by a law passed, but a regulation 
that would devastate the economy of your people, that there 
should be some factoring of that into the decision-making 
process.
    I just want to assure the witnesses that we're a long way 
from finished with this issue. This is the second thanks to our 
chairman and ranking member, Senator Tester, who is the ranking 
member; this is a bipartisan issue. We intend to continue until 
all questions have been answered, and whatever steps, including 
compensation, that need to be taken, we will continue along 
this line.
    I thank all of the witnesses.
    Mr. Chairman.
    The Chairman. Thank you, Senator McCain.
    Congresswoman Kirkpatrick.
    Ms. Kirkpatrick. Thank you, Mr. Chairman. Thank you to all 
the witnesses for testifying today.
    Administrator Stanislaus, how many abandoned mines are 
along the San Juan River and its tributaries?
    Mr. Stanislaus. I don't know the particular number. You 
know, it's been estimated in the thousands in that area. Of 
that how much is along the Animus, I have to get back to you on 
that.
    Ms. Kirkpatrick. Do you have that information?
    Mr. Stanislaus. We can provide you what we have. I don't 
know the exact-
    Ms. Kirkpatrick. Okay. I'd like to know-
    Mr. Stanislaus. Sure.
    Ms. Kirkpatrick. Exactly where they are, how many there 
are.
    Do you have a plan to remediate those abandoned mines?
    Mr. Stanislaus. Yes. So as I mentioned, we proposed for to 
use, doing the Superfund process, a subset of 48 mines in 
proximity not only to the Gold King Mine, but 48 mines which 
are the ones that are most impacting on the Animus River.
    So these are 48 mines, which again, collectively discharge 
about 5.5 million gallons per day into the Animus River heavy 
metal laden water.
    Ms. Kirkpatrick. And what's your timeline to address that 
and stop that spillage?
    Mr. Stanislaus. Sure. So we've recently proposed it, and 
we're in the middle of getting public comments on that. And so 
based on that, we will be considering that for a final rule in 
the fall.
    Ms. Kirkpatrick. Well, you heard the concerns expressed 
about the spring runoff and the possibility of stirring up the 
sediment at the bottom of the tributaries and the rivers. And, 
again, bringing contamination to the Navajo Nation.
    215 miles of Navajo Nation are along the San Juan River. 
What's your plan, first of all, to notify the tribal leaders in 
a timely manner if that happens, not waiting until the 
pollution gets to the Navajo Nation and the Hopi lands, but 
what's your plan for immediately notifying them? What's your 
plan to monitor that sediment and that increased possibility of 
pollution this spring?
    Mr. Stanislaus. Sure. So the plan is actually do have to 
provide resources for all the states and Tribes to do it 
themselves, and us in partnership with them.
    So we've already provided substantial resources, I think, 
for the Navajo a little under--let me see--$465,000 for water 
monitoring.
    In addition, we received a request, in addition to that 
water monitoring, to do this--what's called real-time 
monitoring. And we're going to commit to do that as well so 
that the Navajo, all the Tribes, all the communities would have 
data themselves, can use to make determinations.
    Ms. Kirkpatrick. Well, you heard President Begaye request a 
mobile monitoring unit. Why that not been provided to Navajo 
Nation?
    Mr. Stanislaus. I don't know whether you know.
    Mr. Blumenfeld. Yes.
    Mr. Stanislaus. Yes. I'll have Jared Blumenfeld----
    Ms. Kirkpatrick. Okay.
    Mr. Blumenfeld. So the good news on--on that front is 
there's 436----
    The Chairman. Would you please identify----
    Mr. Blumenfeld. Sure.
    The Chairman. Just for the Committee, identify yourself.
    Mr. Blumenfeld. Sorry. My name is Jared Blumenfeld, I'm the 
Regional Administrator for Region 9 EPA.
    The Chairman. Thank you.
    Mr. Blumenfeld. So, President Begaye, you have $436,000 
that is available, and will expire in September, that can be 
used right now to build that mobile lab. And we've informed Dr. 
Ben and your team of that.
    So this is a good news story, which is the money's in place 
and the authority to use it on that specific task is also in 
place.
    Ms. Kirkpatrick. What's your timeline?
    Mr. Blumenfeld. The money has been there for the last year. 
And so it's making sure that that money gets appropriated by 
the Navajo Nation before September.
    Ms. Kirkpatrick. Can we expedite that?
    Mr. Blumenfeld. We will do anything that we can to expedite 
that with them.
    Ms. Kirkpatrick. President Begaye, I'd like to know if 
you've heard from the EPA about any kind of rapid response 
mechanism or strategy if there is another spill to notify you 
in real-time when it happens.
    Mr. Begaye. There has been comments made, especially during 
the hearings, about setting up some sort of a real-time 
notification that we would get if a spill occurs. And now we 
ourselves, will always be on guard because we know there are 48 
mines that could, today, do what Gold King Mine did, in Cement 
Creek and also in Mineral Creek, and in Upper Animus Creek that 
all flows into the Animus River.
    So we will ourselves, stand guard to make sure that if that 
occurs, that we will be ready to address it when it does 
happen.
    And I do appreciate the comment made about the $436,000 
that is there. But that is mainly for testing of the waters and 
we need a separate funding source. Thank you, Jared, for those 
dollars--but we need a separate funding source to purchase the 
mobile lab unit that will give us real-time, on-location 
testing of our irrigation canals, of the mouth of the rivers 
and the tributaries. We need to have that on location.
    The $436,000--it is expensive right now because we ship 
everything out to the lab--to different places around the 
country. And it will consume this $436,000 very quickly just 
through the cost of testing the soil. We need a lab and we need 
those funds to be separate from the $436,000.
    Thank you.
    Ms. Kirkpatrick. Chairman Honanie, have you had any 
discussions with the EPA about a rapid response to you in case 
there's another spill?
    Mr. Honanie. We have not actively discussed these type of 
areas, simply because we're in an area isolated from any major 
rivers sources and so forth.
    So when this event took place on Navajo and impacted them, 
we realized how they were being impacted. I gathered my staff, 
appropriate staff, who work and studied the area, as far as 
we're concerned. And we were given the information that we 
being in an isolated area, did not really have potential for 
direct acts such as the spill. But we just have other forms and 
levels of contamination that we're still facing right now, yes.
    Ms. Kirkpatrick. Administrator Stanislaus, is the 
administration going to support my legislation HR-3602, the 
Gold King Mine Spill Recovery Act of 2015, which would provide 
compensation to farmers and others who sustained losses related 
to the Gold King spill?
    Mr. Stanislaus. So we'll certainly take a look at it. I've 
been advised we've not looked at it, but we'll certainly be 
working with your staff in providing technical assistance, so 
okay.
    Ms. Kirkpatrick. All right. I thank the Chairman and the 
Senator again for the courtesy to be here today. But I want to 
assure the EPA and the tribal leaders that my office is going 
to stay very involved in this because we're extremely 
concerned.
    I just want to tell you, I'm a new grandma. And I'm 
outraged by the fact that these babies on your tribal land 
could be drinking contaminated water, that their formula might 
be mixed with contaminated water. It's outrageous. It has to be 
stopped. And I want to assure you that my office will be very 
involved on this issue.
    Thank you.
    The Chairman. Thank you for joining us today.
    Administrator Stanislaus, I want to direct this to you. And 
I appreciate Mr. Blumenfeld being here, but I understand he's 
going to be leaving soon as the Region 9 administrator. And 
you're the senate confirmed member at the EPA.
    So I'm just looking at this article again from the Wall 
Street Journal article, Friday, April 8th, Toxic Spill Fears 
Haunt the Southwest. And it's certainly here in Arizona.
    But when we go into this, it talks about residents all 
along the San Juan River has said the EPA has not returned to 
do more tests. And specifically, officials in New Mexico and 
others along the river, including the Navajo Nation, they say 
they expect at least $6 million to fund long-term monitoring.
    I know the EPA budget is over $8.6 billion. And what I want 
to know is if you can--the EPA, for the record, provide these 
funds and make these commitments and assure these people today 
that it's going to be coming?
    Mr. Stanislaus. Sure. I mean, so we've taken a multi-
layered approach to monitoring. So we've done monitoring 
ourselves, shared that with states and Tribes. We will continue 
to do that.
    At the request of states and Tribes for resources, we 
recently awarded resources for the Tribes and states to conduct 
monitoring themselves.
    Subsequent to that, we received a request for this real-
time monitoring system, received that recently, and we're 
committed to providing that as well.
    The Chairman. Okay. Because the article seems to imply 
that, you know, they get the results not real-time, but 
delayed.
    Mr. Stanislaus. That's right.
    The Chairman. So that's the concern that I'm hearing from 
people on the ground and the concerns with regards to the 
waters of the----
    Mr. Stanislaus. Yes. Subsequent to original notification of 
resources for developing the water monitoring plan administered 
by states and Tribes, we received a subsequent request for this 
real-time monitoring system, and we're committed to making that 
happen.
    The Chairman. Okay. Thank you.
    To the tribal members, I just want to thank everyone for 
being here to testify today. You know, in last September's 
testimony the EPA administrator said that the EPA, ``Hold 
ourselves to the same standard we demand from others.''
    This Committee also heard testimony stating that Native 
American families are hurting because of the lack of action 
from the EPA. I think the EPA has been dragging their feet in 
responding.
    In your opinion, is the EPA really holding themselves to 
that same standard that they demand from others?
    And if I could just get a brief answer from each of you 
just to set the final stage of this hearing.
    Mr. Begaye. Well, for us today, the farmers have not been 
compensated. They're still waiting. The farming season is about 
to start. Their revenue last year was washed out. Those are 
monies that they saved to buy seeds to get ready for the 
farming season the following year, which is this year. And they 
have not received a penny.
    And we just need to understand what EPA means when they're 
going to hold themselves accountable. We have not seen it yet. 
It's almost like we have big thunder out on the Navajo Nation 
but no rain.
    And that's exactly what it has been, is that they make 
promises. We meet with them, we have telephone conferences, we 
have meetings, they come to the Nation. But the farmers have 
yet to be compensated. And that is not holding yourself 
accountable.
    Thank you.
    The Chairman. We just heard ``big thunder, no rain.'' Could 
I hear from you.
    Mr. Honanie. Ditto.
    The Chairman. Good.
    Mr. Honanie. Well, yeah. We've had the arsenic situation 
for years. We've had the Tuba City open dump up matter for 
years. And I've only grown 20 years older and still no resolve.
    So that kind of speaks to that question about timeliness in 
responding by the EPA. It has not really been happening at all.
    So, you know, I'm only getting older. I'm waiting to see 
what happens tomorrow.
    The Chairman. Speaker Bates.
    Mr. Bates. Thank you, Chairman. In answer to your 
questions. As indicated by Honorable Begaye, President Begaye, 
and as I indicated in testimony that the farmers that I do 
represent, we have yet to be compensated. I have yet to turn in 
Form 95 for the simple reason that I planted five acres of 
alfalfa.
    And during that period that the water was shut off, a 
period of 21 days, I lost those five acres. So as soon as I put 
that acreage back in to re-plant it, is an example of what the 
farmers--the 1,600 farmers have experienced.
    And so they're waiting, because the dollars that are needed 
come directly out of their own pockets. And there are a number 
of farmers that are going to have to do what I'm going to be 
doing in the next couple weeks.
    So in answer to your question is, no. We want to be 
compensated. We recognize the process; however, we don't want 
to wait in line for two, three years before we get compensated.
    Mr. Chairman.
    The Chairman. Thank you.
    I want to thank all of our witnesses. I want to thank all 
of our guests for joining us today. We're going to continue to 
monitor this crisis. And I expect the full cooperation of the 
EPA.
    This Committee, the Tribes, the American taxpayers deserve 
no less. If there are no more questions for today, members may 
also submit written follow-up questions for the record, and the 
hearing record will be open for the next two weeks.
    I want to thank all of you for your time and your testimony 
today. This hearing is adjourned.
    [Whereupon, at 12:15 p.m., the field hearing was 
adjourned.]

                            A P P E N D I X

    Response to Written Questions Submitted by Hon. Steve Daines to 
                         Hon. Mathy Stanislaus
    Question 1. In November 2009, President Obama issued a Presidential 
Memorandum on Executive Order 13175, requiring all federal agencies to 
engage in ``regular and meaningful consultation and collaboration with 
tribal officials in the development of Federal policies that have 
tribal implications,'' and that federal agencies are ``responsible for 
strengthening the government-to-government relationship between the 
United States and Indian Tribes.'' Yet, at this hearing we have heard 
firsthand from tribal leaders that tribes still feel absent of just 
that meaningful consultation. Does the EPA plan to improve the process 
by which it consults with tribes to fully comply with Executive Order 
13175? If so, how? If not, why not?
    Answer. The EPA recognizes the importance of appropriate 
consultation with tribes, consistent with the federal government's 
trust responsibility to federally recognized tribes. In response to 
President Obama's November 2009 memorandum on tribal consultation, the 
EPA adopted a formal policy on government-to-government consultation 
and coordination with federally recognized tribes in 2011. EPA's Tribal 
Consultation Policy is available on EPA's website: https://www.epa.gov/
tribal/epa-policy-consultation-and-coordination_indian_tribes. The EPA 
issued its Tribal Consultation Policy after extensive nationwide 
consultation with tribes. Under EPA's Tribal Consultation Policy, which 
implements both EPA's 1984 Indian Policy and Executive Order 13175, the 
agency recognizes its obligations to consult with federally recognized 
tribes to provide an opportunity for their meaningful input, and to 
consider their views prior to taking actions that may affect tribal 
interests. Since the issuance of its Tribal Consultation Policy, the 
agency has seen marked improvement in the frequency and quality of its 
consultation and coordination activities with tribal governments. 
Tribal consultation has improved both the efficiency and the 
effectiveness of the EPA's program delivery for tribes.
    EPA's Tribal Consultation Policy defines consultation as a process 
of meaningful communication and coordination between the EPA and tribal 
officials prior to the EPA taking actions or implementing decisions 
that may affect tribal interests. It calls for the agency to follow up 
with tribes to explain how their consultation input was considered in 
the agency's final action. The agency continues to evaluate its Tribal 
Consultation Policy and has developed a mandatory training course for 
all EPA employees, ``Working Effectively with Tribal Governments'', 
which includes a special emphasis on consultation.

    Question 2. How would EPA have worked differently with the three 
impacted tribes in the wake of the Gold King Mine spill to ensure full 
consultation? What lessons did EPA learn from this catastrophe?
    Answer. While the EPA notified the Navajo Nation Environmental 
Protection Agency and the Navajo Nation Department of Justice of the 
August 5, 2015, release in an email sent the evening of August 6, 2015, 
the agency recognizes that more should have been done in alerting 
downstream tribal, state, and local governments. In order to improve 
response related notifications and communications between the EPA and 
our state, tribal and local partners, the agency issued guidance to EPA 
regions, working through the Regional Response Teams, which includes 
representatives from the EPA, other federal agencies and states, to 
strengthen their Regional Contingency Plans, particularly regarding the 
need to alert and coordinate with downstream responders. Following the 
release, the EPA invited tribal representatives to participate in Area 
and/or Incident Command efforts. The EPA recognizes that substantive, 
early coordination and cooperation with tribal, state, and local 
governments is an extremely important component of emergency response 
action.

    Question 3. In the same way tribes are impacted by the Gold King 
Mine spill have expressed grave concerns about EPA's lack of 
consultation following the spill, other tribes have felt neglected in 
other EPA decisionmaking processes. For example, EPA has largely 
ignored the Clean Power Plan's significant economic impacts to the Crow 
tribe whose economy relies on coal production. What was EPA's process 
to evaluate the final rule's economic impact to the Crow tribe and what 
did EPA find?
    Answer. The EPA recognizes the importance of appropriate 
consultation with tribes in developing rules, consistent with the 
federal government's trust responsibility to federally recognized 
tribes. Under EPA's 2011 Tribal Consultation Policy, which implements 
both EPA's 1984 Indian Policy and Executive Order 13175, the agency 
recognizes its obligations to consult with federally recognized tribes 
to provide an opportunity for their meaningful input, and to consider 
their views prior to taking actions that may affect tribal interests. 
EPA's 2011 Tribal Consultation Policy also encourages tribal officials 
to request consultation at any time on EPA actions or decisions. As 
proposals and options are developed, consultation and coordination is 
continued, to ensure that the overall range of options and decisions is 
shared and deliberated by all concerned parties, including additions or 
amendments that may occur later in the process.
    The final Clean Power Plan (CPP) was developed after extensive and 
vigorous outreach to tribal governments, as described in the preambles 
to the proposed carbon pollution emission guidelines for existing 
electric generating units (EGUs) and the supplemental proposed carbon 
pollution emission guidelines for existing EGUs in Indian Country and 
U.S. Territories. After issuing the supplemental proposal, the EPA held 
additional consultation with tribes, as described in the preamble for 
the final rule. To ensure that tribes had the opportunity to 
participate in the action development process, the EPA conducted 
outreach and information sharing on the content of the proposal with 
tribal environmental professionals through the monthly National Tribal 
Air Association (NTAA) calls and held an informational session at the 
National Tribal Forum (NTF) in Anacortes, Washington in May 2014. We 
also held five webinars open to tribal environmental professionals; 11 
listening sessions held at all ten EPA regions and at EPA headquarters 
in Washington D.C.; four two-day public hearings for the proposed 
guidelines and a public hearing for the supplemental proposal; and 
three informational meetings (via teleconference) targeted specifically 
to the tribal community.
    Specifically, the agency sent out four letters in 2013 and 2014 to 
tribal leaders and offered consultation on the rule, prior to proposal 
and after the proposal, to ensure tribes had the opportunity to 
participate in the process. As further recognition of the importance of 
appropriate consultation with tribes in the development of the emission 
guidelines, we held face-to-face informational meetings and government-
to-government consultations with tribes.
    Prior to issuing the supplemental proposal, the EPA consulted with 
tribes on several occasions. The EPA held a consultation with the Ute 
Tribe, the Crow Nation, and the Mandan, Hidatsa, Ankara (MHA) Nation on 
July 18, 2014. On August 22, 2014, the EPA held a consultation with the 
Fort Mojave Tribe. On September 15, 2014, the EPA held a consultation 
with the Navajo Nation. The July 18, 2014 meeting included government- 
to-government consultation with four representatives of the Crow Indian 
Tribe. After issuing the supplemental proposal, the EPA held additional 
consultation with tribes. On November 18, 2014, the EPA held 
consultations with the following tribes: Fort McDowell Yavapai Nation, 
Fort Mojave Tribe, Hopi Tribe, Navajo Nation, and Ak-Chin Indian 
Community. The EPA held additional consultations with individual tribes 
on December 16, 2014, January 15, 2015, April 28, 2015, and July 14, 
2015.
    The Crow Nation submitted comments on the proposed Clean Power Plan 
on the topic of the CPP's potential effect on their economy. The EPA 
carefully considered and evaluated the issues raised. The EPA conducted 
an analysis of the cost, benefit and economic impacts of the CPP in the 
Regulatory Impact Analysis for the Carbon Pollution Emission Guidelines 
Supplemental Proposal and for the final emission guidelines in the 
Regulatory Impact Analysis for the Clean Power Plan Final Rule (RIA) 
for illustrative implementation scenarios. Though this modeling and 
analysis does not focus on individualized, indirect impacts outside the 
regulated sector, as described above, the EPA undertook robust 
consultation and outreach efforts and considered all input. The EPA 
notes that this rule does not regulate coal mines and does not directly 
impose specific requirements on EGUs located in states, U.S. 
tenitories, or areas of Indian country and does not impose specific 
requirements on tribal governments that have affected EGUs located in 
their area of Indian country. For areas of Indian country with affected 
EGUs, the rule establishes CO<INF>2</INF> emission performance goals 
that could be addressed through either tribal or federal plans.

    Question 4. What assistance has EPA provided to impacted tribes 
since the Gold King Mine spill? Has EPA continuously consulted with the 
affected tribes since the spill to address remaining needs, primarily 
safety hazards due to water contamination?
    Answer. EPA Regions 6, 8 and 9 continue to work with state, tribal 
and local entities to gather additional documentation where needed to 
make final determinations regarding reimbursement for submitted 
response costs. As of June 1, 2016, the EPA has provided more than $1.5 
million to states, tribes and local governments through removal 
cooperative agreements.
    In response to dialogue with affected tribes and states, the EPA 
also allocated $2 million to help tribes and states monitor water 
quality conditions in the Animas and San Juan Rivers. Of the $2 
million, the Navajo Nation was allocated $465,000, the Southern Ute 
Tribe $130,000 and Ute Mountain Ute Tribe $40,000. The agency has also 
conducted follow up monitoring at two sampling sites on the Southern 
Ute reservation and one sampling site on the Ute Mountain Ute 
reservation.
    The EPA also provided additional resources including:

  <bullet> More than 100 EPA staff from multiple regional offices 
        deployed to Incident Command Posts in Farmington, New Mexico 
        and Durango, CO as well as to the Navajo Nation Emergency 
        Operations Center (EOC) in Window Rock, Arizona, as well as 
        community involvement staff deployed to engage directly with 
        Navajo communities impacted by the release;

  <bullet> An On-Scene-Coordinator and Coast Guard personnel deployed 
        to support the operations of the Navajo Nation EOC;

  <bullet> Support to the Navajo Nation, including three native 
        speakers;

  <bullet> More than one million gallons of livestock and agricultural 
        water, and nearly 8,500 bales of hay provided to Navajo 
        communities along the San Juan River in conjunction with the 
        Bureau of Indian Affairs; and

  <bullet> Community involvement staff who attended meetings at the 
        invitation of Chapter presidents and local officials, and 
        shared critical information about emergency water and hay 
        provisions and response activities with residents, reaching an 
        estimated 1,100 community members at nine public meetings over 
        ten days.

    Question 5. Mr. Bates' testimony details how EPA has failed to 
provide the Navajo Nation the assurances that the tribe's livestock and 
agricultural products will be safe for sale and consumption. When will 
EPA provide those assurances?
    Answer. The San Juan River has historically received pollutants 
from a variety of sources, including abandoned mines. During the 
response to the Gold King Mine release, metal concentrations exceeded 
Navajo Nation's agricultural screening levels for short durations. 
Given the short duration of the exceedances, the EPA believes the San 
Juan River is safe for agriculture and irrigation. Historical data 
indicates the San Juan River surface water has previously exceeded 
Navajo Nation's agricultural screening levels. During the Gold King 
Mine response, the EPA consistently shared its analysis of the data 
with Navajo Nation government officials.
    Through the proposed National Priorities List listing for the 
Bonita Peak Mining District, the EPA is taking an important step 
towards addressing ongoing pollution from abandoned mines in the San 
Juan River Basin. The EPA is also providing Clean Water Act funding to 
multiple jurisdictions, including $465,000 to Navajo Nation, to conduct 
additional monitoring and sampling in the watershed. In addition, the 
EPA is providing funding to support elements of a ``preparedness plan'' 
to inform a real time notification system in the event of any seasonal 
high-level flows associated with the many mine sites in the Upper 
Animas watershed.

                                   [all]
</pre></body></html>
